<html>
<title> - NATIONAL YOUTH ANTI-DRUG MEDIA CAMPAIGN</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]


 
                NATIONAL YOUTH ANTI-DRUG MEDIA CAMPAIGN
=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 25, 2002

                               __________

                           Serial No. 107-207

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform






                       U. S. GOVERNMENT PRINTING OFFICE
86-964                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                     COMMITTEE ON GOVERNMENT REFORM



                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
BENJAMIN A. GILMAN, New York         ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida,               BERNARD SANDERS, Vermont
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JIM TURNER, Texas
DOUG OSE, California                 THOMAS H. ALLEN, Maine
JO ANN DAVIS, Virginia               JANICE D. SCHAKOWKY, Illinois
DAVE WELDON, Florida

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                 Christopher A. Donesa, Staff Director
              Sharon Pinkerton, Professional Staff Member
                          Conn Carroll, Clerk
                  Julian A. Haywood, Minority Counsel
        




                         C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 25, 2002....................................     1
Statement of:
    Johnston, Lloyd D., distinguished research scientist, Survey 
      Research Center, University of Michigan; Philip Palmgreen, 
      professor, Department of Communication, University of 
      Kentucky; Hon. Rob Portman, a Representative in Congress 
      from the State of Ohio; Susan Patrick, president, the 
      Governor's Prevention Partnership; and Paul J. Zimmerman, 
      senior manager, corporate function consumer of market 
0      knowledge, Procter and Gamble..............................     7
Letters, statements, etc., submitted for the record by:
    Johnston, Lloyd D., distinguished research scientist, Survey 
      Research Center, University of Michigan, prepared statement 
      of.........................................................    10
    Palmgreen, Philip, professor, Department of Communication, 
      University of Kentucky, prepared statement of..............    20
    Patrick, Susan, president, the Governor's Prevention 
      Partnership, prepared statement of.........................    42
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     3
    Zimmerman, Paul J., senior manager, corporate function 
      consumer of market knowledge, Procter and Gamble, prepared 
      statement of...............................................    48


                NATIONAL YOUTH ANTI-DRUG MEDIA CAMPAIGN

                              ----------                              


                         TUESDAY, JUNE 25, 2002

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2247, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the committee) presiding.
    Present: Representatives Souder, Cummings, Barr, Gilman, 
and Mica.
    Staff present: Christopher Donesa, staff director and chief 
counsel; Sharon Pinkerton, professional staff member; Conn 
Carroll, clerk; Julian A. Haywood, minority counsel; and Jean 
Gosa, minority assistant clerk.
    Mr. Souder. The subcommittee will come to order.
    Good morning. In announcing the national drug control 
strategy for this year, President Bush said the following: 
``More than 50 percent of our high school seniors have said 
that they have experimented with illegal drugs at least once 
prior to graduation. There are some new hip drugs like ecstasy 
and GHB that are kind of fads. But they're dangerous and 
lethal, and they're taking too many lives.''
    President Bush continued, ``And we know the results, we 
know what can happen. The important bonds between parents and 
children are fractured and broken, sometimes forever. Schools 
can turn into places of violence and chaos, as opposed to 
places of learning and hope. Productive citizens can be so 
dependent, so addicted that they live a life of hopelessness. 
We've got to do something about it here in America.''
    As part of the same announcement, the President said ``It 
is important for Americans and American families to understand 
this: that the best way to affect supply is to reduce demand 
for dugs, to convince our children that the use of drugs is 
destructive in their lives.'' One of the specific programs that 
President Bush noted was the National Youth Anti-Drug Media 
Campaign, which is budgeted for $180 million this year. Under 
the media campaign, the Federal Government buys advertising 
time to reach American youth with the message that drug use 
should be rejected.
    Like the President, I have supported this program, because 
I believe that it is one of the cornerstones of our integrated 
national strategy to prevent teen and later adult drug use. 
Recent weeks have brought more troubling news about the media 
campaign. The last periodic evaluation of its results suggested 
that the advertisements have not had a directly measurable 
effect in persuading adolescents. Director Walters of the 
Office of National Drug Control Policy was quoted the next day 
in the Wall Street Journal as flatly stating that this campaign 
isn't reducing drug use.
    When coupled with other issues, such as the continued 
implications of the billing irregularities previously revealed 
in the program, it is clear that significant questions must 
eventually be addressed and resolved as a prerequisite to any 
authorization of the program in this subcommittee. The most 
useful way to begin the reauthorization process, however, is to 
start with the fundamentals.
    Today's hearing is intended to review the most fundamental 
question of all: do we need an anti-drug media campaign? I 
believe that the answer to this question is yes, because it is 
one of a limited number of major prevention programs in the 
United States, but also because we must watch the social 
messages our kids receive by fighting fire with fire in the 
public arena.
    Our witnesses today will give their views on the issue, 
including several reasons why they believe that at the 
conceptual level, a media campaign is necessary and can be 
successful. My friend and co-chair of the Speaker's Drug Task 
Force on a Drug-Free America, Congressman Rob Portman of Ohio, 
was to be our first panel. He is tied up and we will have him 
join this panel when he gets there, but we'll go ahead with the 
second panel. He has been a leader in the Nation's demand 
reduction efforts and recently has been giving careful study to 
this program, in addition to his many other responsibilities, 
working as President Bush's liaison on Capitol Hill.
    Our second panel, now our first panel, will feature 
prevention professionals and academics from around the country, 
including Dr. Lloyd Johnston of the University of Michigan, the 
principal investigator for the Monitoring the Future study 
tracking adolescent drug use; Professor Philip Palmgreen, of 
the University of Kentucky, who has authored a study on the 
effect of public service advertisements on teens; Susan 
Patrick, of the Governor's Prevention Partnership for the State 
of Connecticut; and Mr. Paul Zimmerman of the Procter and 
Gamble Corp., who has been active in the Community Coalition 
for a Drug-Free Cincinnati.
    [The prepared statement of Hon. Mark E. Souder follows:]
    [GRAPHIC] [TIFF OMITTED] 86964.001
    
    [GRAPHIC] [TIFF OMITTED] 86964.002
    
    Mr. Souder. We welcome you all and look forward to your 
testimony on this important issue. I would now like to 
recognize Mr. Cummings for an opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    The Office of National Drug Control Policy's Youth Anti-
Drug Media Campaign plays an important role in our Government's 
efforts to reduce the demand for illegal drugs. The goal of the 
campaign is to halt drug use before it starts by spreading the 
word and encouraging the belief that illegal drug use is 
harmful and inconsistent with success in life.
    The campaign also stresses the importance of frank and 
honest discussion about drugs among parents and their children. 
The campaign as we know it began in 1997, when the Partnership 
for a Drug-Free America turned to President Clinton and 
Congress for Federal support of its pioneering drug prevention 
effort. For a decade, the Partnership had been successful in 
soliciting millions of dollars in creative ad content from 
advertising firms and valuable free air time from the major 
networks to produce a series of hard-hitting public service 
announcements aimed at discouraging teen drug use.
    The University of Michigan's Monitoring the Future survey, 
moreover, showed that the ads were not only making an 
impression, but they were actually changing attitudes and 
behavior for the better. When deregulation in the television 
industry caused free air time to dry up, Congress stepped up to 
the plate and gave ONDCP $185 million to place pro bono ads on 
TV. We subsequently reauthorized the campaign which has since 
grown into a comprehensive media effort involving Web sites, 
entertainment industry outreach efforts, and an array of 
things, in addition to television advertising.
    Five years later, we are here asking, do we need an anti-
drug media campaign? In my view the answer is simply yes. 
Illegal drug consumption continues to tear at the fabric of our 
communities, and we need to do everything we can to convince 
our young people to stay away from illegal drugs.
    An effective anti-drug media campaign should, without 
question, continue to be a part of our Federal drug control and 
prevention strategy. The operative word, of course, is 
effective. We have understood that from the very beginning. 
That is why Congress mandated that the National Institute for 
Drug Abuse design an evaluation competent to measure the 
campaign's impact on the attitudes and behavior of youth and 
their parents. The most recent data from NIDA tell us that the 
ads are sticking and that they are causing parents to take a 
more active role in counseling their children about drugs.
    The data does not show, however, that the ads are causing 
use of marijuana to decline among youth. Unfortunately, these 
mixed results have led to some rather gloomy public appraisals 
of a campaign by ONDCP Director John Walters, who has emerged 
as the campaign's harshest public critic.
    It is clear enough that the campaign requires some 
retooling. And Director Walters has suggested a number of steps 
that might be taken to improve the campaign's effectiveness, as 
has the Partnership. We must evaluate the options before us 
carefully, but even more importantly, we must undertake this 
effort with a firm determination to see that this campaign 
succeeds.
    In private meetings with myself and other members and in 
public testimony before the appropriations subcommittees in the 
House and Senate, Mr. Walters has indicated he remains 
committed to the campaign. So I would argue, should we in 
Congress be committed also? We must make the case to our 
colleagues. Helping us to lay a foundation for that case today 
are several individuals with valuable expertise and experience 
in the area of anti-drug media campaigns and their impact on 
drug use and attitudes toward drugs.
    One of them is Congressman Rob Portman of Ohio, who 
believes that the campaign is making a difference for the 
better in his hometown of Cincinnati. Congressman Portman and I 
have been working with our Senate colleagues, Joe Biden and 
Orrin Hatch, to craft legislation to reauthorize the ONDCP 
media campaign. I think it is fair to say that we share the 
belief that Federal support for an anti-drug media campaign 
must continue. It is the right thing to do, and it can be done 
effectively, as it has been done before.
    I look forward to hearing the testimony of all of our 
witnesses today, and I look forward to working with you, Mr. 
Chairman, and the rest of our colleagues, to make the media 
campaign as effective as it can be. Thank you.
    Mr. Souder. Thank you.
    Before proceeding, I would like to take care of a couple of 
procedural matters. First, I ask unanimous consent that all 
Members have 5 legislative days to submit written statements 
and questions for the hearing record, and that any answers to 
written questions provided by the witnesses also be included in 
the record. Without objection, it is so ordered.
    Second, I ask unanimous consent that all exhibits, 
documents and other materials referred to by Members and the 
witnesses may be included in the hearing record, and that all 
Members be permitted to revise and extend their remarks. 
Without objection, it is so ordered.
    Would the witnesses on this panel each stand up? It's been 
a longstanding practice in our committee that we swear the 
witnesses in. If you'll raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Thank you. Let the record show that the 
witnesses have each answered in the affirmative.
    We're looking forward to your testimony. As you have 
gleaned, if you didn't know before, this committee is unusual 
in the sense that we're an oversight committee, but in this 
case of this program, we're also the authorizing. We're trying 
to figure out what things might need to be changed in the 
definition of this campaign, so we're very much looking forward 
to your testimony.
    Dr. Johnston, if you would start.

    STATEMENTS OF LLOYD D. JOHNSTON, DISTINGUISHED RESEARCH 
  SCIENTIST, SURVEY RESEARCH CENTER, UNIVERSITY OF MICHIGAN; 
   PHILIP PALMGREEN, PROFESSOR, DEPARTMENT OF COMMUNICATION, 
 UNIVERSITY OF KENTUCKY; HON. ROB PORTMAN, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF OHIO; SUSAN PATRICK, PRESIDENT, THE 
   GOVERNOR'S PREVENTION PARTNERSHIP; AND PAUL J. ZIMMERMAN, 
     SENIOR MANAGER, CORPORATE FUNCTION CONSUMER OF MARKET 
                 KNOWLEDGE, PROCTER AND GAMBLE

    Mr. Johnston. Good morning, Mr. Chairman and Congressman 
Cummings. It's a pleasure to have the opportunity to testify 
before you this morning on the National Youth Anti-Drug 
Campaign.
    My name is Lloyd Johnston. I'm a program director and 
distinguished research scientist at the University of 
Michigan's Institute for Social Research, where for the past 28 
years, I've directed the Monitoring the Future Study that you 
referred to, both of you, in your opening comments.
    Much of my testimony, in fact, will be based on results 
from that study, so I'd like to start by just taking a moment 
to say a few words about what it is. This is a research grant 
that's funded by the National Institute on Drug Abuse. As I 
say, it's been going on for 28 years. And we do national 
samples of 8th, 10th and 12th grade students around the country 
each year, roughly ages 13 to 18, so basically the teen years.
    At present, some 45,000 students are surveyed each year, 
and they're asked about their use of a wide array of 
substances, and it's a wide array that they have available 
today, as well as related attitudes and beliefs and 
experiences. Specifically related to the current issue, we ask 
them, and have since 1987, how frequently they see the anti-
drug commercials or spots on radio and television and about the 
extent to which they feel these commercials have made them 
personally less likely to use drugs. So it's their own judgment 
about impact.
    My comments are organized around a set of charts to my 
right. I'll mention to the audience that the same charts are in 
the testimony that's on the table.
    Chart one contains the long term trends in marijuana use 
for students in 8th, 10th and 12th grades. It goes back over a 
26 year period. I want you to note a couple of things about 
this, and it's true of the other drugs that I don't have up on 
charts. There's a great deal of variability over time. These 
have not proven to be immutable behaviors. They're subject to a 
range of social influences and change has occurred. If I put 
the line up there for delinquency, for example, it would be 
much flatter.
    Notice also that use leveled off in about 1996 or 1997, in 
all three grades, after a period of increase. And in fact, 
there has been some fairly steady decline among the eighth 
graders in their marijuana use since then. This most recent 
year, 2001, didn't show any further decline.
    Chart two shows the similar trends for illicit drugs other 
than marijuana taken as a group, the proportion of kids who 
used something beyond marijuana. It has fairly similar trends 
over time and note that there has been some progress since 1998 
when the Federal campaign began for the eighth graders in 
particular, who have shown declines. And for a number of the 
specific drugs that are in the class, that I don't have up 
here, there have been important declines. Inhalants, LSD, 
heroin, cocaine, crack, some of the most serious drugs, have 
actually shown improvements during this period.
    I note that the report that you alluded to from Weststat 
and Annenberg only deals with marijuana, not with all these 
other drugs.
    I don't have any charts on the various individual drugs, 
but if I did, what they would show is that there is a great 
deal of individuality in their cross-time profiles of change. 
This suggests that there are drug-specific influences driving 
their levels. Two powerful influences that we have identified 
in this study are perceived risk, how much kids think they are 
harmful, and their disapproval.
    Turning to our findings about the media campaign, chart 
three shows the trends in reported weekly exposure by students 
to anti-drug commercials on TV and radio. Note first of all the 
gradual decline in the early 1990's as the pro bono placement 
waned, and then a sharp increase in 1999 as the Federal program 
kicked in to buy space and time. But right after that, pretty 
much a leveling. In fact, the level has not yet reached where 
it was in the heyday of the pro bono campaign in the early 
1990's.
    Chart four shows trends in the students' reactions to the 
campaign: students are asked to what extent the ads made them 
personally less likely to use drugs. And the majority of 
students at all three grade levels credited the ad campaigns 
with having at least some deterrent influence on their drug 
use. Substantial portions credit the ad campaign with having a 
lot of influence: and in fact, 48 percent of the eighth graders 
say that. I think that's most advertisers' dream, to get that 
much impact self-reported by the target audience.
    The proportion of eighth graders reporting effects has 
risen steadily since 1997 as exposure has increased for them. 
But note that the older kids have not shown an increase in 
reported impact. That suggests to me that we've lost some 
salience with the older kids, because they should be showing 
more impact with more exposure.
   Chart five shows one particular drug where I think there is 
quite compelling evidence of impact, and that's inhalants. The 
Partnership for a Drug-Free America, before the Federal 
campaign set in, had an anti-inhalant campaign that was 
initiated in 1995, largely because of our calling attention to 
the continuing increase in inhalant use. And the proportion of 
students who said there was a great risk in using inhalants, 
even once or twice, jumped up in that year, as you can see. And 
that was at a point where practically no other drugs were 
turning down. So it wasn't part of a larger trend.
    Chart six, the final chart, shows that inhalant use, which 
had been gradually rising for virtually a 20 year period, began 
to decline in 1996, at the same time that the campaign kicked 
in, and has been declining since, as much as 45 percent in some 
grades.
    So, in conclusion, I think there's evidence that media 
campaigns can and do have deterrent effects. There's also 
evidence in other domains, I might add, like alcohol and 
tobacco. So I hope we're careful not to throw out the baby with 
the bathwater here. Just because one preliminary report dealing 
with a single drug out of the very many that we now have, 
covering a very short period of time, 18 months, and focused on 
a particular implementation of the media strategy, which was 
whatever was done in those 18 months, just because that study 
fails to find evidence of effects is certainly not sufficient 
reason to give up on the entire enterprise.
    I've tried to show evidence that would lead to a quite 
different conclusion about the need and desirability for having 
a vigorous and sustained anti-drug media campaign. It's one of 
the very few tools that we have for reducing demand, and I 
think it can be effective. Thank you.
    [The prepared statement of Mr. Johnston follows:]
    [GRAPHIC] [TIFF OMITTED] 86964.003
    
    [GRAPHIC] [TIFF OMITTED] 86964.004
    
    [GRAPHIC] [TIFF OMITTED] 86964.005
    
    [GRAPHIC] [TIFF OMITTED] 86964.006
    
    [GRAPHIC] [TIFF OMITTED] 86964.007
    
    [GRAPHIC] [TIFF OMITTED] 86964.008
    
    Mr. Souder. Thank you.
    Professor Palmgreen.
    Mr. Palmgreen. Well, I was told, I have to apologize, that 
there was going to be Power Point available today. And there is 
no Power Point available today, so I think the members of the 
committee will have to follow along with the handout of my 
slides, which is what I'm going to use. I have to apologize to 
the audience for not being able to see these.
    My name is Phil Palmgreen. I'm a professor of communication 
at the University of Kentucky. I've been doing research with a 
number of colleagues there for the last 15 years on anti-drug 
public service announcements specifically, funded by the 
National Institute on Drug Abuse. NIDA has been very interested 
in the impact of these kinds of PSAs.
    I'm going to report to you today on one of those studies, 
probably our most important study, which assesses the impact of 
televised PSA campaigns on at-risk teens' marijuana use. And 
that was the only component of this campaign, anti-drug public 
service announcement, because NIDA wanted to know if those PSAs 
worked. And it's difficult to tell if you have a multi-
component campaign that includes schools, community efforts and 
so forth. So we just ran a PSA campaign only as the purest test 
of the possible impact of such a campaign.
    In a nutshell, our research shows that a scientifically 
targeted television campaign can reduce marijuana use among at-
risk youth. Now, a key element of these campaigns was something 
called sensation seeking. Sensation seeking is a personality 
trait that's been studied in hundreds of studies over the last 
40 years or so. It involves a need for novel and emotionally 
intense stimulation. High sensation seekers just need a lot 
more of that than low sensation seekers.
    It also involves a willingness to take risks for such 
stimulation. It's about 60 percent inherited, which means that 
for many people, their brains are hard-wired to become high 
sensation seekers. It's moderately to strongly associated with 
all kinds of substance use, from cigarettes and alcohol up the 
hardest drug, and I'll show you some of that in a moment.
    Also, high sensation seekers make up about 50 percent of 
the population as defined by most researchers. It's not a small 
group of people. How do you identify high sensation seekers? 
Usually through a small scale, we developed a short version 
that we can use with kids. It has items in it like, I would 
like to explore strange places, I prefer friends who are 
excitingly unpredictable, I like to do frightening things, I 
like wild parties and so on. People who agree with those kinds 
of items tend to be high sensation seekers.
    Now, I said that high sensation seekers use a lot more 
drugs and a lot more of a particular drug than low sensation 
seekers. I have some data from the Partnership for a Drug-Free 
America, who has an attitude tracking survey that they do 
annually of about 7,000 kids, a nationally representative 
sample, 7th to 12th graders. For example, for marijuana, among 
those 7th to 12th graders, about 2\1/2\ times as many high 
sensation seekers as low sensation seekers use marijuana. And 
that's really an underestimate, because that's an average 
across 7th to 12th grades. And in 7th grades, there's very 
little difference between high and low sensation seekers.
    By the 12th grade, there's usually a much bigger 
difference, about as high as four to one in favor of the high 
sensation seekers. But you also see those same kinds of ratios 
for alcohol, cigarettes, inhalants, for example, inhalants is 
3.3 to one, cocaine. When you look at lifetime use of some of 
the harder drugs, like meth, which is such a troubling drug 
today, it's almost four to one in favor of high sensation 
seekers using it in the last 30 days. Ecstacy, three to one.
    So in other words, sensation seeking really is, we have 
found it to be a particularly effective variable for targeting 
those who are most in need of hearing the message, the anti-
drug message. Now, how do you reach these people? Because 
they're not easy to reach.
    There happens to be a fortuitous circumstance, and that is 
that high sensation seekers, it turns out, in their need for 
stimulation, also require stronger messages to get their 
attention and to persuade them. These messages ordinarily are 
novel, dramatic, emotionally powerful, graphic, unconventional 
and certainly not preachy, as you might expect. Without these 
kinds of characteristics, we have found that you can't even get 
the attention of high sensation seekers, much less persuade 
them.
    The study I'm talking about was carried out in Lexington, 
Kentucky and Knoxville, TN. They are, it turns out, two very 
comparable communities. It had two principal goals. One was to 
study the impact of televised PSA campaigns on at-risk teens' 
marijuana use, especially among high sensation seekers, and to 
try to interrupt or even reverse the normally observed age 
related upward trends in teen marijuana use that you ordinarily 
see.
    The study's principal design features included PSAs 
developed or selected for appeal to high sensation seekers. We 
did a lot of research on that. We developed our own five PSAs. 
We had a few PSAs from the Partnership for a Drug-Free America 
as well, but they didn't get much air time, because the 
Partnership at that time was operating strictly on a pro bono 
basis. We were buying time for our own PSAs, so our own five 
PSAs that we developed had to carry the load.
    The PSAs were placed in programming with high sensation 
seeking appeal, according to our surveys. High exposure also, 
we had high exposure to the PSAs, a combination of purchased 
and donated time. We also used a powerful control time series 
design to measure behavior change in high sensation seekers. 
That's probably the most powerful design available for this 
kind of study.
    The study itself involved 6,400 adolescents, approximately. 
We started gathering data, started sampling 100 kids per month 
in Lexington, Kentucky and Knoxville, Tennessee. We did that 
for 32 months, sampling from the same cohort of kids as they 
got older. They were 7th to 10th grade when we started, 32 
months later, this same cohort of kids was in what we call the 
10th through 13th grade, or the grade after graduation from 
high school.
    We started gathering data 8 months prior to the first 
campaign, which was carried out in Lexington, Kentucky, a 4-
month campaign in the spring of 1997. A year later, we did a 
booster campaign in Lexington, Kentucky and we ran a campaign, 
the same kind of campaign, same ads, in Knoxville, Tennessee. 
So we were able to plot trends in use of marijuana, 30 day use 
of marijuana, to see if the campaigns affected these trends, 
both before, during and after the campaign, a unique feature of 
this study.
    Finally, look at the results here, unfortunately some of 
you in the audience will have to look at the handout that I've 
passed around, there are two charts here, one for Knoxville, 
Tennessee, where we only ran one campaign. What you see there, 
there is some sampling error due to the small sample sizes. But 
we divided the samples into high sensation seekers and low 
sensation seekers. If you look at the circles at the bottom, 
that's the low sensation seekers. They're just sort of not 
using much marijuana. Average use of about 7 percent in the 
last 30 days, and they're not going up over that 32 month 
period.
    High sensation seekers, on the other hand, went up from 
about 16 percent use to 20 months later, before the first 
campaign started, they went up, they doubled, went up to almost 
33 percent. That's a typical age related increase that you see. 
Our campaign started in January 1998 in Knoxville. They 
immediately started down. And they were still going down 8 
months after the campaign ended.
    In Lexington, where you have a more complex pattern, 
because you have two campaigns, once again, low sensation 
seekers going along the bottom, not using much. But the high 
sensation seekers, that 50 percent of the population we were 
studying, were going up like a rocket, basically, to start 
with. Then they encountered our first campaign in 1997. Down 
they went.
    Then 6 months after that campaign, that campaign had a 
wear-out effect, like you usually see with product advertising. 
And they started back up again. So we hit them with the booster 
campaign. And down they went again. And they were still going 
down at the end of the campaign.
    So we estimate that there was a 27 to 36 percent decline in 
the proportion of high sensation seeking teens using marijuana 
in the past 30 days in these two communities. That's a 
substantial decrease.
    What are the implications? What did we learn from all this? 
That we think televised PSAs emphasizing marijuana risks, 
because that's what we did, and one of the things I guess I 
failed to mention was that we only used PSAs that involved 
risks, marijuana risks, risks scientifically documented and 
risks that high sensation seekers told us were very important 
in their lives, such as damaged relationships with family and 
friends, decreased academic and sports performance, loss of 
part-time jobs, impaired memory and judgment, reduced 
motivation, depression, lung damage and so forth. We put those 
things into our PSAs.
    So our study speaks to PSAs that feature marijuana risks 
and we feel those kinds of campaigns can substantially reduce 
marijuana use among at-risk teens. To be successful, we think 
these kinds of campaigns should be designed specifically for 
at-risk teens,
especially high sensation seekers. And they should achieve high 
levels of audience penetration and exposure, that's important.
    And finally, we feel that our results show rather 
dramatically that TV campaigns can play an important, very cost 
effective role in preventing teen marijuana use. Thank you.
    [The prepared statement of Mr. Palmgreen follows:]
    [GRAPHIC] [TIFF OMITTED] 86964.009
    
    [GRAPHIC] [TIFF OMITTED] 86964.010
    
    [GRAPHIC] [TIFF OMITTED] 86964.011
    
    [GRAPHIC] [TIFF OMITTED] 86964.012
    
    [GRAPHIC] [TIFF OMITTED] 86964.013
    
    [GRAPHIC] [TIFF OMITTED] 86964.014
    
    [GRAPHIC] [TIFF OMITTED] 86964.015
    
    [GRAPHIC] [TIFF OMITTED] 86964.016
    
    [GRAPHIC] [TIFF OMITTED] 86964.017
    
    [GRAPHIC] [TIFF OMITTED] 86964.018
    
    [GRAPHIC] [TIFF OMITTED] 86964.019
    
    [GRAPHIC] [TIFF OMITTED] 86964.020
    
    [GRAPHIC] [TIFF OMITTED] 86964.021
    
    [GRAPHIC] [TIFF OMITTED] 86964.022
    
    [GRAPHIC] [TIFF OMITTED] 86964.023
    
    [GRAPHIC] [TIFF OMITTED] 86964.024
    
    [GRAPHIC] [TIFF OMITTED] 86964.025
    
    Mr. Souder. Thank you. We've been joined by our colleague 
from Ohio, who has been the Republican leader on demand 
reduction. It's a privilege to have you here, Congressman Rob 
Portman.
    Mr. Portman. Thank you, Mr. Chairman. I apologize that I 
was delayed getting here earlier, but delighted that I got to 
hear some of Professor Palmgreen's testimony. I'm sorry I 
missed Dr. Johnston's, who is really one of the great 
researchers in this area. His work is viewed as the seminal 
survey work in this area and has been for 15 or so years. I 
look forward to hearing more from our other panelists. You've 
got a great panel here, including my colleague from Cincinnati, 
Paul Zimmerman.
    Ranking Member Cummings and Mr. Barr and Mr. Chairman, I 
thank you for having this hearing. This is very important that 
we have a hearing just about what the heck a media campaign can 
do and should do, and to back up a little bit and talk about 
why Congress made that big decision back in 1998 to get into 
this area of helping to encourage and to be sure that we had a 
strong media campaign out there. I enjoyed working with you, 
Mr. Chairman, and Chairman Burton on the reauthorization of the 
Drug-Free Media Campaign, Mr. Cummings as well, and I look 
forward to working with you to tackle this new issue we have 
before us, which is reauthorizing the media campaign in a way 
that makes sense.
    I also want to thank you, Mr. Chairman, for your personal 
commitment to this and your commitment to substance abuse 
across the board, demand and supply side. I think this hearing 
recognizes the importance of the media campaign to the country, 
and it recognizes we're not going to cede the health, safety 
and lives of our children to the dangers of illegal drug use. I 
think that's very important, just as a statement.
    I think we all agree that there's no silver bullet in this 
business. There's no magic solution that's going to enable us 
to stop drug use overnight. But we also, I think, all agree 
that a very important way to get the message across is through 
public media, and that includes television, radio and 
newspapers. I personally am a firm believer, as you know, Mr. 
Chairman, that an effective media campaign can help, as we just 
heard based on good survey data, to help keep kids off drugs.
    The Partnership, of course, operated a successful campaign 
long before we got involved in 1998. Congress, in 1998 
understood the importance of that and wanted to ensure that it 
would continue under more difficult circumstances. So we came 
up with the idea to use Federal dollars on a matching basis to 
purchase media time to air anti-drug ads. These ads would be 
prepared by the best in the business, the best creative talent 
and the Partnership was asked to help ensure that creative 
production process would continue to be there on a pro bono 
basis, which was part of the cost effectiveness of the 
campaign. By doing so, we had hoped that the free creative 
would result in not only the best work but a cost savings to 
the taxpayer.
    We knew we had to purchase the actual advertising time, but 
even there, we realized the taxpayers would get a strong return 
on that investment, because we were going to be sure that every 
dollar spent on media buys would be matched by the private 
sector. And again, as was just noted in terms of the cost 
effectiveness, if you look at the other things we're doing in 
prevention or treatment, or for that matter on the supply side, 
as Professor Palmgreen has said, this is a very cost effective 
way to deal with these issues.
    Since 1998, ONDCP has run its campaign. With the help of 
the Partnership, they've created more than 212 commercials. 
Some have said the campaign has lost its way. Many of us of 
course are familiar with the criticism that John Walters, the 
Director of the Office of National Drug Control Policy, 
recently had to the media campaign based on the NIDA study.
    There are questions about the methodology used in that 
study, I'm sure you're going to get into that today. I'll let 
your experts testify to that. But even if you support the 
methodology and even support the results of this latest survey, 
it's not all bad news, which is how the media portrayed it 
often. For instance, there were very positive outcomes with 
parents. More parents were seeing the ads, more parents were 
talking to their kids about drugs as a result. And we have 
found in our work back home and even nationally this is a vital 
element. Probably the single most important thing we could do 
is just to get parents more engaged in the lives of their kids 
and talking to their kids about the consequences of drug use, 
dealing with it. And that has been successful in these ads.
    Unfortunately, other aspects of the NIDA study were not as 
positive, and of course, we're not seeing the decrease in the 
percentage of teenagers using drugs that we'd like to see.
    I'm here to tell you, Mr. Chairman, that I'm willing to 
work with the subcommittee in whatever way possible. I know 
you're committed to this as well, to make sure that the ad 
campaign is made more effective. I'm convinced that it can be 
done. I say this because of the proven ability of public 
service campaigns around the country on various issues. Again, 
we just heard testimony to that.
    But I also speak from first-hand knowledge in our own 
community, because we've seen the positive results that can be 
gained by an effective media campaign. We started the Coalition 
for a Drug-Free Greater Cincinnati about 6 or 7 years ago. I 
founded it as chairman. And we recently conducted a survey, we 
do a survey every 2 years. Our recent survey showed a decline 
in teen drug use in our region for the first time in a dozen 
years.
    So for the first time in 12 years we're seeing a decline. 
And it's a fairly substantial decline, marijuana use down 13 
percent, alcohol use down 24 percent among teens, cigarette use 
among teens down 28 percent. We coordinate back in Cincinnati 
an extensive local anti-drug media campaign. We've been very 
successful in getting TV stations, radio stations involved. 
We've had over $1 million donated in free time every year for 
the past 3 years, making it one of the most aggressive anti-
drug media campaigns in the country, we think the most 
aggressive in terms of a city our size and our market.
    We think it's working. Our survey has shown that kids who 
have seen the anti-drug ads on a regular basis are 20 percent 
less likely to use. Paul will go into more detail on that in 
terms of the methodology. But this survey, we think, is the 
best local survey out there. It's almost like a census rather 
than a survey. We have 67,000 kids from 123 greater Cincinnati 
schools now involved in our survey. So it's a huge sample, and 
it means that we're able to get to a pretty fine point in terms 
of the variations. So we feel good about the survey and its 
methodology.
    We know that prevention and education tools like the media 
campaign work, based on the survey. We need to keep the effort 
going. Again, you're going to hear from Paul, and he was the 
mastermind behind how to put this survey together so we could 
benchmark and compare it to Dr. Johnston's work, Monitoring the 
Future, other national surveys, as well as all the local survey 
work that had been done in our area over the last decade.
    A lot of different ideas, Mr. Chairman, have come up as to 
how to improve the national media campaign. Among those are 
focusing on older kids, centering the campaign more on 
marijuana, ensuring that every single ad, not just most ads, 
are tested before they air. All these seem sensible to me. They 
all seem like good ideas. The key is that we work together on a 
bipartisan basis to keep the good ads on the air as part of a 
complementary prevention and demand reduction effort.
    I'm hopeful and confident that this and other hearings will 
give us the guidance we need to be able to move forward with 
that and draft a reauthorization bill that will indeed result 
in a more effective campaign to assure that we keep our kids 
drug-free. And I thank you again for giving me the opportunity 
to testify today.
    Mr. Souder. Thank you for your testimony. We were 
originally going to have you on a separate panel, so if you 
need to leave at any time, feel free to do so.
    We'll now go to Susan Patrick. Thank you for coming today.
    Ms. Patrick. Mr. Chairman, members of the committee, thank 
you very much for this opportunity to testify today.
    I've been in the prevention field for over 25 years, and 
I'm currently the President of the Governor's Prevention 
Partnership, which is a bipartisan, public-private alliance in 
Connecticut founded in 1989. The organization is currently co-
chaired by Governor John Rowland and by the CEO of People's 
Bank, John Klein. Our board includes business and community 
leaders and the State's legislative leadership. Our mission is 
to lead a State-wide movement to keep Connecticut's youth drug-
free and safe.
    So I am here today to speak to the impact of the campaign 
in one State. We do a variety of programs which include a media 
partnership, programs that teach parents how to talk to their 
children about drugs, and that has been significantly motivated 
by the campaign, a State-wide mentoring initiative, and a 
State-wide coalition to drop underage drinking.
    Our organization has been affiliated with the Partnership 
for a Drug-Free America since 1991, and we are strongly 
committed to delivering anti-drug messages to Connecticut youth 
and their parents. Through our network of more than 90 media 
partners and with the support of the Partnership, we too have 
garnered more than $1 million each year in pro bono support.
    While we are proud of the support from Connecticut's media, 
we recognize its limitations in consistently and frequently 
reaching our target audiences. When we received word of the 
ONDCP anti-drug media campaign, we were thrilled. I haven't 
been that excited in ages. Pro bono support had declined and 
drug use was going up. In fact, marijuana use in our eighth 
graders had just tripled.
    Connecticut was selected as one of the 12 pilot sites for 
the campaign. And I can tell you first hand, it worked 
phenomenally. Calls to our 1-800 number quadrupled during the 
first 3 months. Businesses began calling and asking us to 
deliver lunchtime talks on drug prevention. Law enforcement 
professionals and chief elected officials called to request 
copies of campaign materials to distribute to the citizens in 
their communities.
    ONDCP's formal evaluation of the Connecticut pilot found 
that key community influencers in Connecticut were aware of and 
supported the campaign and youth and that parents reported a 
higher level of awareness of anti-drug messages, particularly 
those on television and radio.
    In addition, this campaign provided fertile ground for our 
organization to significantly expand its parent education work. 
We believe parents are key to drug prevention, but reaching 
them and involving them and getting them to actually talk with 
their kids has been challenging. I would go to panels on 
schools for parent education programs where more panelists were 
there than parents.
    Through a program called Parents Work! we partner with 
businesses to provide onsite lunchtime seminars for their 
employees. We train them in how to talk to their children about 
drugs, alcohol, violence, bullying and most recently, how to 
deal with the traumatic effects of September 11th. The campaign 
was instrumental in bringing the issue of parents, kids and 
drugs to the forefront of business interests, because motivated 
by the ads, employees were asking for it.
    We have since delivered the program to 5,000 employees in 
250 businesses. Our evaluation shows that there is a 71 percent 
increase in the number of parents who say they will talk to 
their children about drugs and who feel prepared to do so, and 
a 57 percent decrease in parents who believe they have no 
influence on a child's decision to use drugs.
    Overall, in Connecticut, we know this campaign works and we 
urge you to continue full funding. We also urge you to return 
the campaign to the principles and practices that guided it in 
the first couple of years. During that period, from our 1997 
survey to our 2000 survey, past month marijuana use declined 
from 10.5 percent to just over 7 percent among Connecticut's 
seventh and eighth graders and dropped from 27 percent to 22 
percent among ninth and tenth graders.
    You've heard testimony on what makes a campaign like this 
effective. I'm not a researcher, but I can tell you what I've 
observed is the end result. When the campaign began to wander 
and the frequency of spots went down, especially when the local 
buy was eliminated, kids' attitudes began to soften, especially 
toward marijuana. Not only were they not seeing as many anti-
drug ads, but they were and are being influenced by the 
national movement to legalize marijuana, which they 
increasingly see as a harmless drug.
    While we are all deeply concerned about the threat of 
terrorism, we are equally concerned about our children's 
future. As more Federal resources are directed toward homeland 
security and as States grapple with their own budget crises, it 
becomes even more critical to invest our limited dollars 
wisely. As you probably know, each dollar invested in 
prevention saves $15, double what we actually save from an 
investment in treatment.
    This campaign is a wise and necessary investment. But the 
investment must be guided by good business practices. This 
campaign must be structured to produce results, and there are 
several things I'd like to suggest to do this. First, return to 
the strategy of focused messages crafted by advertising 
professionals. Second, make sure that the ads are seen often 
enough to have an impact by increasing the amount of campaign 
dollars directed to media buys at the national and at the local 
level.
    Third, continue to require a pro bono media match. Fourth, 
partner with organizations like ours to leverage an even wider 
distribution of the ads. For example, last year we reached more 
than 12,000 parents with campaign messages by partnering with 
faith-based organizations who included them in their bulletins, 
libraries who set up special displays and schools who sent them 
home with students.
    Our organization is thankful for the congressional support 
that has allowed widespread anti-drug media exposure. We 
appreciate the foresight Congress has shown in the fight 
against illegal drug use, and we urge a recommitment of these 
efforts to the full funding of the campaign under these 
conditions.
    Thank you very much.
    [The prepared statement of Ms. Patrick follows:]
    [GRAPHIC] [TIFF OMITTED] 86964.026
    
    [GRAPHIC] [TIFF OMITTED] 86964.027
    
    [GRAPHIC] [TIFF OMITTED] 86964.028
    
    [GRAPHIC] [TIFF OMITTED] 86964.029
    
    Mr. Souder. Thank you very much.
    Mr. Zimmerman, we're going to let you bat cleanup on the 
Cincinnati campaign.
    Mr. Zimmerman. Thank you, Mr. Chairman and members of the 
subcommittee. My name is Paul Zimmerman, from Cincinnati, OH.
    As a volunteer, I am responsible as Vice President for 
Programs of the Coalition for Greater Cincinnati, for designing 
and analyzing the results of our usage survey, which we've 
done, and then making sure that those results are understood 
and implemented by our various subcommittees. For my day job, I 
work for Procter and Gamble company, for the past 26 years, 
where I am in the market research department. Germane to my 
recommendation on my written survey, I was responsible for the 
validation of our copy testing system, which we use at Procter 
and Gamble, where we can evaluate copy before it goes on air, 
and then determine whether or not it has a probability of 
building business.
    I wish to discuss very briefly the results of drug usage in 
greater Cincinnati, because I feel that our results are 
applicable to many communities around the United States. Our 
usage trends that we have seen are fairly typical. The monthly 
usage of marijuana, alcohol, tobacco and other drugs are fairly 
typical compared to other communities in the United States. We 
too have seen, as Rob said, a decrease in monthly usage of all 
drugs locally. That is shown in table one.
    Table two demonstrates, when we look at risk and protective 
factors, that the level of protective factors, such as parents 
talking to their children about drugs, parents setting rules, 
children attending church and finally, seeing anti-drug media, 
are fairly reasonable. We see that proportionally, about two-
thirds of students, similar to some of the other results you've 
seen this morning, have claimed to have seen ads one or more 
times per week.
    I want to backtrack 1 second and say that our survey, which 
we did as a modified PRIDE survey. We administered it to 
students in grades 7 through 12 in greater Cincinnati. Our base 
sizes were 47,000 in the year 2000 and 68,000 in the year 2002. 
This is important, because those figures indicate that the 
survey was conducted by over half of all students in the 10 
county area surrounding greater Cincinnati. Also, within the 
schools that participated, we had over 85 percent of students 
in each individual school. So as Rob said, our results are 
virtually a census as opposed to a sample.
    The results that are key that I wish to highlight today are 
shown in table three. What we did is look at those students who 
had seen anti-drug ads one or more times per week and 
contrasted those with the usage of students who had seen those 
ads less frequently. What you'll see on the bottom line was 
that those students who saw the ads more frequently had a 20 
percent reduction in marijuana usage. We saw similar reductions 
in other drugs also, you should be aware of.
    If you notice, however, that for parents setting rules, the 
reduction was much higher. I highlight this because it 
demonstrates the face validity of our results. We're not saying 
that the anti-drug ads will replace the effective parents and 
their role in the family. What we're saying, however, is that 
they are very meaningful results and statistically significant.
    My recommendation is to very strongly continue the 
advertising campaign which you have started. You should be very 
sensitive to over-saturation. I have heard some discussion that 
there might be interest in targeting more senior students, 
grades 10, 11 and 12. I would highly recommend against this, 
because we know from our data that they also perceive the ads 
to be, they get more cynical as they get older, basically. They 
perceive them to be less effective.
    We've tracked the same schools year to year, we've seen 
that if you start them out low, the rate of adoption of 
marijuana and other drugs continues on a lower level. So I 
think if I were putting my money in the campaign, I would do it 
for younger students, not older.
    My second recommendation is very strongly to test every ad 
before you put it on air. We do this at Procter and Gamble. 
Every major manufacturer does this. There's no reason you 
shouldn't do the same thing. Very importantly, you should make 
sure that the comments you're getting from students as they 
view these ads include both rational and, as other speakers 
have said, emotional components of what they feel about it. You 
buy Tide and Pantene and Dawn detergent not only because they 
work well, which they do, but also because there's an emotional 
bond with those products which we develop through our copy.
    The thing you wish to avoid, the thing you have to avoid, 
is a situation where they hear the message that they think the 
commercial is stupid or they don't believe it. By all means, 
measure both components. Every major manufacturer of consumer 
goods measures copy on both of these. Please do the same thing.
    That's all the comments I have. If there are any questions, 
I'd be glad to answer them.
    [The prepared statement of Mr. Zimmerman follows:]
    [GRAPHIC] [TIFF OMITTED] 86964.030
    
    [GRAPHIC] [TIFF OMITTED] 86964.031
    
    [GRAPHIC] [TIFF OMITTED] 86964.032
    
    [GRAPHIC] [TIFF OMITTED] 86964.033
    
    [GRAPHIC] [TIFF OMITTED] 86964.034
    
    Mr. Souder. Thank you very much. I would yield to Mr. Barr 
if he has any opening statement or questions.
    Mr. Barr. Thank you very much, Mr. Chairman. I appreciate 
the chairman yielding and I appreciate this hearing today. I 
apologize, we have a mandatory whip meeting that I have to go 
to in a few minutes. But this hearing, this topic is very, very 
important and I appreciate the testimony, including some of the 
specific points, for example, that you just made, Mr. 
Zimmerman.
    I'm going from somebody who is very, very supportive of an 
anti-drug campaign to somebody that's very skeptical of it. 
Maybe it's just the way we're doing it, maybe it's the fact 
that we're continuing to provide money to a company under 
criminal investigation, and which has already defrauded the 
Government out of millions of dollars. I'm talking about Ogilvy 
and Mather.
    It seems to me rather contradictory and sending a strange 
message that we're using taxpayer dollars to fund an anti-drug 
message and we're giving money to a company under criminal 
investigation. I know that's not the topic of the hearing 
today, but that, to be honest, is coloring very significantly 
my view of this whole program and kind of illustrates part of 
the problem with it.
    I don't think we have a handle on it at the Federal 
Government level in terms of how to do this in a method with 
integrity and that's based on good science and so forth. So I'm 
going to look very, very carefully at reauthorizing this 
program.
    The one concern about everything else in terms of the 
substance, though, aside from this problem with Ogilvy and 
Mather that I think is very, very serious, is the problem with 
so-called medicinal marijuana. The NORML group, the National 
Organization for the Reform of Marijuana Laws, which is sort of 
one of the points of the spear for the pro-drug movement, 
they've become much more sophisticated, much smarter than they 
used to be, unfortunately. They realize now, I think, and have 
come to realize over the last several year that the way to get 
their foot in the door is not through directly advocating the 
legalization of mind-altering drugs, but to do it under the 
guise of the benign approach of medicinal marijuana.
    And to be honest with you, I think they're having some 
considerable degree of success in this area by portraying 
marijuana as a medicine to help sick people, particularly those 
who are very sick, cancer patients, for example, those in pain, 
preying on the natural tendency of all people, young or old, to 
reach out and try and help somebody who is in pain or who is 
suffering from a very debilitating, indeed, life threatening 
illness. I don't think that we've done a good job of countering 
that, even recognizing the insidious nature of what these drug 
legalizers are doing under the guise of so-called medicinal 
marijuana.
    Should we confront this directly through the ad campaign? 
In other words, tell particularly young people that marijuana 
is not a medicine, it is not something benign. Because I think 
the message of the drug legalizers who have realized that the 
way to get their foot in the door is to use this so-called 
medicinal marijuana approach is working. I worry about that a 
great deal, and we don't seem to be confronting it directly. I 
think we need to. Otherwise, we're going to lose this battle. 
We've already lost it at some level in a couple of the States.
    Do you all have any thoughts on that? I guess the question 
is, should we address this specifically and try and counter it? 
Do you all see this as a serious threat to continuing the 
effort against mind-altering drugs, what the legalizers are 
doing through the so-called medicinal marijuana approach?
    Mr. Zimmerman. If I was trying to answer your question, I 
would first talk with a number of students, grades 7 through 
12, and find out from them the most convincing arguments and 
counter-arguments. I would have to shift my frame of reference 
from the legalization to the kids and say, what's effective for 
them.
    And if, indeed, talking and convincing them that the 
medicinal use, convincing them that it's not just an actual 
good drug, is effective, then I would go after that full 
barrel. But I'd have to talk to some students first, to be 
quite honest.
    Mr. Barr. I hear this from students, when we have student 
groups up here and student groups in the district, not in large 
numbers, mind you. I mean, it's not like all of the students 
are in favor of this. But I'm hearing it with increasing 
frequency among some student groups, and that worries me, that 
the message is getting out to them that marijuana is simply a 
drug, it's a medicine, it helps people as opposed to destroying 
minds.
    Ms. Patrick. We actually did a summit with Connecticut 
youth that they held and ran on this topic. I also took young 
people out to testify to our own legislature when one of these 
bills was being considered.
    I agree that message is getting through to young people. I 
think it speaks even more to the need for this campaign and to 
have that counter-balancing influence, because it's through 
mass media and it's through the Internet that young people are 
acquiring this perception that marijuana, and the other drug 
this is happening with is ecstacy, are harmless drugs. Without 
that counterbalancing force, we in the prevention field simply 
do not reach enough of these kids.
    Our State right now is in the process of cutting budgets 
and prevention has been deemed the lowest priority, therefore, 
the first thing to be cut. So I am very, very concerned that if 
this campaign ends, we will see that same cycle that we've seen 
over and over again, where funding declines, use goes up, we 
have a crisis and then we pour a lot more money into it again. 
Like I said, I've been at this for 25 years, I've seen a number 
of those cycles.
    But I agree with you that message is getting through to 
young people. And I think counterbalancing that is very 
important.
    Mr. Barr. Specifically addressing the medicinal marijuana 
issue?
    Ms. Patrick. Specifically the medicinal marijuana. We had 
gotten that signal, too, which is why we did this summit, 
because we wanted to ask kids. Then we asked them for their 
recommendations on what they thought should be done to 
counterbalance it. They did include the anti-drug advertising 
as part of the recommendations. They also focused very heavily 
on the importance of parents talking to them about this stuff.
    But yes, in Connecticut, that is definitely influencing 
kids.
    Mr. Barr. Thank you. Thank you very much, Mr. Chairman, for 
letting me go out of order. I appreciate the ranking member's 
indulgence also.
    Mr. Souder. Thank you. Mr. Gilman, do you have an opening 
statement?
    Mr. Gilman. Yes, I do, Mr. Chairman. And I want to thank 
you for conducting this hearing. I'll be brief.
    I think the media campaign is an essential part of our drug 
war. The problem has been how effective has it been. I note 
that the Congress appropriated some $35 million to study, make 
an evaluation of the media campaign, specifically the phase 
three multimedia efforts, which have been underway since 1999. 
In that study, the results of which I guess will not be 
published until the year 2004, we were hoping it could be 
earlier, is charged to examine the effectiveness of the 
campaign at preventing kids from using drugs as well as its 
effect on getting parents to talk to their children.
    I regret I was delayed in coming over and didn't hear some 
of the initial evaluations of our present campaign. But I'd 
like to direct a question to Mr. Portman, who's doing an 
outstanding job in his work. Mr. Portman, several advertising 
professionals have noted that the media campaign is spending up 
to one-third of their annual budget on things other than direct 
media buys. Should Congress legislate that a minimum percentage 
of the budget be spent on direct media buys, and what 
percentage would you recommend?
    Mr. Portman. You put me on the spot, my friend.
    Mr. Gilman. I'm sorry to do that.
    Mr. Portman. First of all, thank you very, very much for 
not just coming today and your focus on the media campaign, but 
for all you've done on this issue. When I first got here 9 
years ago and joined the task force, you were the co-chair, and 
you were one of the few people around here who was focused on 
this issue.
    Mr. Gilman. Thank you.
    Mr. Portman. You have now spawned some acolytes here on 
this subcommittee. Thank you for the work on the supply side 
and the demand side. One of your proteges has just arrived here 
on the drug front.
    Mr. Gilman. Not a protege, he's a good fellow battler.
    Mr. Portman. I think you raise a very, very valid concern. 
We heard from the professionals here about the necessity to 
have a certain level of advertising out there. When we started 
this campaign, you recall we basically had three principles.
    One was this notion of continuing to get pro bono help from 
the creative side, so the taxpayer wasn't picking up the 
creative side, and because frankly, we didn't think the 
Government could do it as well as the people itself. So people 
that are out there every day trying to determine what the 
consumers actually want and need seemed to us to be probably 
better equipped that somebody in the bureaucracy in Washington. 
And Paul just talked about that, his training in that and how 
he's brought that training to bear on what we do in Cincinnati.
    Second is, we wanted to get a match for it. So it was $1 of 
Federal money would be matched by the private sector. We were 
leveraging private sector resources to try to keep this 
campaign going. Because as you know, at that time, the campaign 
had fallen off, partly because of the competition in the media 
market.
    But the third thing was, hard-hitting ads that would be on 
public media. To us that was primarily TV. And also it included 
radio and print. But we wanted to be sure we had enough in the 
budget to do this in a way that met a certain level, just like 
you do in a political campaign, so people could actually have 
their attitudes change, which would then change behavior.
    And I do have a concern that as you begin to pull money 
away from that and pull it toward other things, which may be 
very well meaning and even effective in some cases, like 
advertising at a grocery store or advertising a sporting event 
or even some of the Internet work which is very important, but 
then you're pulling it away from what our focus was. And our 
focus was to be sure you have these ads out there, hard-hitting 
ads, countering what Bob Barr just talked about a moment ago. I 
think we have gotten away from that. And I think we need to get 
more focused on kind of the bare bones, what we started with 
and what the original principles were.
    So I don't know what the magic number is. I don't know 
whether 30 percent, which I think you indicated is the amount 
that's taken away now, I think that's too much to take away 
from the campaign in terms of hard-hitting ads in public media. 
I don't know if there should be a 10 percent number or 15 
percent. I don't know what that number is. That's why I say you 
put me on the spot. That's really for this subcommittee to 
grapple with, and I want to work with you on that.
    But I do think we need, unfortunately, because we're all 
for flexibility here, but we need to put in at least some 
guidelines now that we didn't have before. That was certainly 
our intent, it's in the legislative history. But ONDCP did take 
that and expand it, the so-called non-media uses to a point 
where I think they've gone too far.
    Mr. Gilman. Thank you very much, Rob. Is there any----
    Mr. Zimmerman. Can I make a statement, please? You asked 
about 30 percent. I have some information which would be 
relevant to that.
    Mr. Gilman. Yes.
    Mr. Zimmerman. Whenever we launch new business products 
into the marketplace, you typically weight your advertising 
spending so that it gears toward television, typically. You 
might spend 90 percent of your funding on television, 10 
percent, as an example, on magazines or other media.
    The important thing to realize is that this does vary by 
category. If people are looking for information on a new drug, 
such as Prilosec or something like that, they typically would 
look not necessary for mass media, but they would look for 
print or alternative sources of media. So depending upon your 
goal as a subcommittee, if you're looking to get the message 
out to a group of people who will be convinced more by print 
than they would be by television, then you should skew your 
spending toward print.
    So again, focus on your end user and where they look for 
information to help them make up their mind. Is it the pulpit, 
is it the magazine or is it TV?
    Mr. Gilman. Is that one-third of the expenditure on other 
than direct media buys, is that an appropriate figure?
    Mr. Zimmerman. I don't know unless I knew what that 30 
percent was for. I would need to know more detail.
    Mr. Palmgreen. I think I can add something of an insider's 
view on this. Up until last summer, I was a member of the 
scientific panel advising the ONDCP campaign. I say advising, 
that doesn't mean we were always listened to. But we were 
listened to very frequently.
    And one of the goals of the campaign has always been to 
have a non-media component. Absolutely the major component of 
the campaign has been a media component, and television has 
been the primary portion of that component.
    But there has always been a non-media component that 
involved things like the Internet, partnering with various 
local anti-drug coalitions. The idea here is that as Paul said, 
there are many ways to reach the audience that we need to 
reach. Coupled with this has been a very large increase in the 
cost of purchasing advertising in the national media over the 
last 4 to 5 years.
    I've heard as high as 50 percent during some time periods. 
That means that for the same amount of money that the campaign 
is getting a lot less air time than they did when they first 
started. Yet they started out with $195 million a year funding, 
and that has dropped to $180 million a year. We're not keeping 
pace. The campaign is not keeping pace with inflation.
    Mr. Gilman. Is that 50 percent figure--just one followup--
--
    Mr. Souder. Mr. Gilman, we skipped over our turn in 
questioning. We really need to----
    Mr. Gilman. Just one question. What is the 50 percent 
you're referring to? Is that the cost of purchasing?
    Mr. Palmgreen. The cost of purchasing national television 
time during certain time periods like prime time.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Souder. Thank you. Mr. Cummings.
    Mr. Cummings. I want to go back to, I think it was you, Mr. 
Palmgreen, that talked about the most effective ads being ones 
that show some kind of risk, right? Is that you?
    Mr. Palmgreen. That is the types of ads that we have 
studied in our research. Actually, it follows right along with 
Dr. Johnston's research at the University of Michigan, in his 
Monitoring the Future study, where he has found over this 
period from 1975, I believe, that use of drugs and the 
perceived risks of drugs have tracked each other almost in a 
mirror image. As perceived risk of drugs went up, drug use has 
gone down.
    Mr. Cummings. OK. Let me get to the way I want to take you. 
One of the things that was very interesting, the previous drug 
czar came to my district and talked to some young people about 
the ads. These were high school students. It was interesting to 
note that one of, and they ran about maybe 10 or 15 of the 
typical ads. One of the ads that they ranked No. 1 was one by a 
woman named Lauryn Hill. She's a singer. She didn't talk a lot 
about risk, she just talked about it's not good for you, that 
kind of thing.
    But I think they were more impressed with the fact that she 
was somebody who had a similar experience of life as they were 
experiencing, at least this is what they said. And it wasn't so 
much risk, but the personality. I've noticed these ads, some of 
the ads have personalities, I think one of them has some 
skateboard guy and different people.
    I was just wondering, to all of you, have you found there 
to be, if you combine the two, that is a personality talking 
about risk, is that more effective? Is it basically 
personality? Or is it risk? In other words, which ones are most 
effective?
    Mr. Palmgreen. Well, our research with high sensation 
seekers, we have spent a lot of time talking to high sensation 
seeking youth about what really does influence them. One of the 
things, we're talking about from youth all the way through to 
young adults, and they consistently told us over the years that 
they are not really influenced by celebrities. They want to see 
people in messages that look like themselves, that can speak to 
themselves.
    Now, the Lauryn Hill ad that you're referring to, I think 
one of the reasons that it was effective was because she did 
mention in that ad some of the really negative things, very 
briefly, she mentioned some of the very negative things that 
using drugs did to her. Then she moved on to some of the more 
positive consequences of the lifestyle that was drug-free, 
which is a very effective way to counter-argue the idea of 
using drugs.
    Mr. Cummings. Mr. Zimmerman, you talked about over-
saturation. I'll get back to you, Mr. Johnston, but over-
saturation, when they got to be older, I guess you were talking 
about seniors in high school. So the question becomes, do you 
put your money, if you really want to affect high school 
students, do you put your money in when they're younger, and 
does that hold? In other words, if we were to reduce our aiming 
at the high school students, does the research show that if you 
do an effective job when they're younger, that it will hold 
when they become seniors? Are you following me?
    Mr. Zimmerman. Yes.
    Mr. Cummings. OK.
    Mr. Zimmerman. I'll know for sure in another 2 years. But 
we do our survey every 2 years. So I only have those two cells 
of information.
    What we've seen is, whereas our normal curve of usage, 
monthly usage, starts out low in grades 7 and 8, then it ramps 
up like a stairstep through grade 12. What we saw was last 
year's seventh graders are now this survey's ninth graders. 
They're definitely on a different slope, the rate of adoption 
is much lower. We're hoping this continues. But as the other 
speakers have said, this is totally dependent upon their 
attitudes toward the usage of drugs. So you have to have a 
message that they can relate to, as you said with the Lauryn 
Hill copy, and you have to have a message that makes sense to 
them.
    So we feel that there is evidence to suggest that, if you 
target the younger people, it will stay there, as long as their 
attitudes hold constant.
    Mr. Cummings. Dr. Johnston, did you have something?
    Mr. Johnston. I would agree with that. As we've looked over 
the years at where changes first occurred, it's almost always 
the youngest students that either startup or start down. And 
our interpretation of that is that they are the most, in a 
sense, the most blank slates. So there's a new story to be 
written on that slate. And the influences that society presents 
to them are quicker to show up in behavior. We've also seen 
that as they get older, as you're saying, they tend to carry 
those behaviors with them.
    Actually, tobacco is the most powerful of all the so-called 
cohort effects. If a generation of kids starts smoking even at 
age 11 or 12, that generation is going to be heavier smokers 
throughout the life cycle. It tends to stay with them. There's 
less of a cohort effect with the other drugs, because they're 
easier to stop, ironically.
    But nevertheless, we have seen a cohort effect working 
during the 1990's. So what we see among the eighth graders then 
keeps getting shifted up in the age spectrum.
    My guess from seeing that is that we're best to focus on 
the youngest kids. You don't forget about the older ones, but 
you put the majority of your resources and targeting on the 
younger ones, which I think received regional partnership 
campaign strategy. I also think it's important to get 
sufficient weight out there. We've been talking about how 
inflation has sort of reduced the actual number of messages 
received. And as you saw, even with the payment these days, we 
still haven't gotten up to the media weight that the kids were 
reporting in the early 1990's, when we were quite successful, 
actually.
    So I think I would certainly argue against reducing 
resources. I would argue more for increasing them. Probably 
focusing on more. I think they've been diced up too many ways. 
There's a lot of good objectives. But you can't pursue them 
all. If you say, where am I going to get the most bang for the 
buck, I think it's by focusing.
    One other thing I might mention, two I guess, one is that I 
think the ONDCP probably made a strategic error in always 
putting their byline at the end of their ads. Because I think, 
as your Lauryn Hill example showed, the effect of a message 
depends on who the messenger is. I don't think a Federal office 
is the messenger that most teenagers are very responsive to. So 
putting that at the end of every ad I think just causes them to 
reach for the mental flush valve and drop that message that 
they just temporarily stored. I think we ought to get out of 
that. If there has to be some sort of a label that says this is 
Government funded, come up with a new label that's not so 
offensive to kids.
    But the other point I wanted to make is, I said that a lot 
of the change we've seen is drug specific. I think that will 
continue to be the case. If you see marijuana as more 
dangerous, that doesn't necessarily mean you're going to use 
cocaine less. So it's one's beliefs about all the individual 
drugs that matter. Right now we're dealing with a burgeoning 
ecstacy problem in the country. We're finally beginning to see 
a turnaround in perceived risk on ecstacy, and I think it's 
quite possible next year we'll see a turnaround in use.
    But that's a good example of where there needs to be 
focused campaigns and conceivably for a year or two, that would 
be the majority of the campaign on a specific drug that is a 
threat at that point and about which people know relatively 
little in terms of the consequences.
    Mr. Souder. Dr. Palmgreen, your study shows the opposite of 
what those two gentlemen just said, that in the Lexington 
results it worked in the first period and in 6 months, it was 
rising almost back to the level where it was. And if you hadn't 
run a second campaign on the older kids, it wouldn't have 
dropped back down, according to your data. How do you reconcile 
that?
    Mr. Palmgreen. I think that's correct. I think our research 
does indicate that you can reach these older teens with the 
right kinds of messages. The kids, when we ran that Lexington 
campaign and that Knoxville campaign in 1998 were the 9th 
through 12th grades. So we're talking about the average grade 
being about the 10th grade, something like that. And it worked 
in both cities.
    So I think they can be reached with the right kinds of 
messages that feature the kids their age to talk about the 
kinds of problems that kids their age face. I think prevention 
is something that's almost a lifelong problem. There are always 
new drugs surfacing that people will adopt. We all know, for 
example, that college students, when they become college 
students, that alcohol use often increases quite a bit, and 
binge drinking tends to go up quite a bit. This is why we have 
so many efforts on college campuses to try to stop binge 
drinking.
    I think what Director Walters has proposed, to focus on 14 
to 16 year olds, I know this runs somewhat counter to what Paul 
was suggesting, but I guess I'm going according to the data 
that we have, and also thinking of it in these terms. These 
will be the same kids who are going to be 14 to 16 this coming 
year who were hit with ads earlier when they were younger, when 
they were 11 to 13 years old. They will be getting a double 
dose, they will be getting the message reinforced. That's very 
important in prevention, and it's something that doesn't happen 
very often in prevention.
    Mr. Souder. I'll come back to some more questions. I was 
going to yield to Mr. Mica next.
    Mr. Mica. Thank you, Mr. Chairman. I appreciate your 
calling this hearing. I'm dismayed at the lack of progress 
we've made in this whole media campaign effort, anti-drug 
effort.
    When I chaired the subcommittee, we instituted the program 
as a compromise between those of us who wanted the private 
sector to take a larger role and the media, which has basically 
free access to our air waves, to increase their public 
participation and public interest contributions to the 
community and our society by donating more time. The program 
has been a disaster. I'm dismayed at both, I was dismayed at 
its beginning activities.
    We heard testimony on the subcommittee of how it was sort 
of put together on a half-baked basis. And finally it was then 
turned over to a horde of consultants, some of whom ripped off 
the program. Some I'm hoping that we're still pursuing criminal 
charges on, and I think some have already paid fines for their 
participation.
    I'm dismayed that what's happened is actually continuing a 
decline of the media participation in some of the programs. I'm 
pleased that the new director has called a time out to look at 
where we are in this. We need to get back to the public sector, 
providing some guidance and more participation from the private 
sector, which has been so successful. Certainly the Partnership 
has done an excellent job in the past and I think can continue 
in the future.
    But we do need to sort this out. The Kentucky study is 
interesting, but the Kentucky study, I don't have a clue as to 
how it relates to the ads that we now have. I think it's sort 
of comparing apples and oranges. It does show that public 
service announcements I guess were successful. As I look at the 
study in this limited case, and in bringing down some use of 
marijuana, that's primarily what was studied?
    Mr. Palmgreen. Yes, that's right, Congressman.
    Mr. Mica. Was there any study or are there any statistics 
about increased other drug use during that period? We didn't 
have as much of an ecstacy problem from May 1996 to 1998 as 
we've had from May 1998 to current time.
    Mr. Palmgreen. One of the things we looked at, we didn't 
look at ecstacy at that time, because it was not a major 
problem at that time. But we looked at alcohol, cigarettes, 
cocaine, methamphetamine, LSD, a whole range of drugs.
    Mr. Mica. I don't see any statistics.
    Mr. Palmgreen. Not this----
    Mr. Mica. Is there any evaluation of what took place with 
those other substances?
    Mr. Palmgreen. That's in a much longer report that was 
published in the American Journal of Public Health.
    Mr. Mica. Were there increases, decreases?
    Mr. Palmgreen. What we found, we put those in there for one 
major purpose, we expected, we were targeting marijuana only. 
We expected to see effects of the campaign on marijuana. 
Therefore, we did not expect to see effects on any of these 
other substances. So we also ran profiles on all of these other 
substances. And sure enough, we found no effects on these other 
substances.
    As Dr. Johnston says, the beliefs about these drugs are 
specific to the particular drug. So we affected what we were 
aiming at, marijuana. The other drugs did not show those 
effects.
    Mr. Mica. Again, we have just seen a transfer, maybe some 
decreases in some areas, increases in others, and I'm concerned 
about the ongoing NIDA evaluation, $35 million. We won't have 
results until 2004.
    In the private sector, I think if you waited to see the 
results for that long, you'd not only be out of business and 
have declared bankruptcy, but you would definitely be defunct. 
I guess the Cincinnati experience would be the only thing that 
might be comparable. I notice, and you have had some good 
success there. Is there an evaluation as to transfer from other 
drugs, from marijuana in Cincinnati?
    Mr. Zimmerman. There is no transfer, absolutely, 
unequivocally.
    Mr. Mica. So your evaluation shows across the board 
reductions or at least some stabilization?
    Mr. Zimmerman. Yes, sir.
    Mr. Mica. OK. What was the cost of this effort? And I don't 
want you to give me a figure of private contributions. 
Actually, if you could separate them out, public money that was 
in the program, and over what period of time, and then maybe 
some guesstimate of what the private contributions were.
    Mr. Zimmerman. I don't have to guesstimate. We had 
approximately $1 million worth of advertising media donated per 
year in the greater Cincinnati area, which includes 
southwestern Ohio and northern Kentucky.
    Mr. Mica. How much public money was in it?
    Mr. Zimmerman. The only public money was the national 
campaign.
    Mr. Mica. And how much?
    Mr. Zimmerman. I don't know the dollar value of that in 
Cincinnati.
    Mr. Mica. See, I think that's very important. I'd like to 
see what was put in there. I mean, if there was not that much, 
maybe we should abandon the whole project and just let the 
locals do a good job like you did.
    Mr. Zimmerman. Judgmentally, the majority of the effort was 
the national program.
    Mr. Mica. Can anybody tell us, was it half a million, a 
million over a year or 2 years?
    Mr. Souder. The problem is that they reduced the local ads, 
but they were running national ads which of course were carried 
in the local market.
    Mr. Mica. But we can, I mean, this isn't rocket science, 
even if you're running a campaign for Congress, you can tell 
what your opponent has placed as far as ads. We can certainly 
find out how much was spent in this area.
    But I cannot believe a $1 billion program we can't point to 
once place, see how much it cost, how effective it was across 
the board, what the private contributions were. And then if it 
was successful, as Cincinnati is, why we can't duplicate that 
in other areas. It's just absolutely mind boggling. We spend 
more damned money studying, and this NIDA thing, I would like 
to cancel that right now, $35 million in the evaluation that 
won't be done until the spring of 2004. Only in Government 
could we throw money around in such a waste, and we've got kids 
dying on the street and we can't duplicate a successful 
program.
    Mr. Zimmerman. Mr. Mica, what I will do is, in greater 
Cincinnati, is I will go back to our media subcommittee for our 
coalition. We have a very good working relationship with the 
various TV channels in Cincinnati. We'll see if we can back 
that number out. The problem is, sir----
    Mr. Mica. I think it would be very good to look at, and 
again, Rob Portman and some of the others from Ohio have done 
such a great job in an area that during the time we've had this 
campaign, so we could see what nationally has been done, get a 
handle on those figures and replicate that to other communities 
that are willing to come forward and support that.
    Mr. Zimmerman. The difficulty in doing that, sir, is that 
some of the national programs, the commercials are fed in by 
satellite and the local TV stations don't have control over 
them.
    Mr. Mica. Well, certainly we can get their records, if 
necessary, we could subpoena those records.
    Mr. Zimmerman. It's difficult to back out, having done this 
for tracking our current businesses at Procter and Gamble, it's 
very difficult to do. I'll see if I can do it and I'll get back 
to you.
    Mr. Mica. I think that's important. I think we should ask 
that from Mr. Walters' office. Because we need to get this back 
together, we need to make it work, best utilization of limited 
Federal dollars. These aren't limited amounts, they're 
significant amounts. And then where we can have some good 
results, such as this community has exhibited, use that as a 
model. I don't have any further questions, thank you.
    Mr. Souder. What I would like to do for this hearing report 
in the number of days we have is to ask--since there's no point 
in trying to back this through to Cincinnati, I think what we 
should do is go to Ogilvy and Mather and see where their time 
period buys were that would have been national buys and local 
buys. They have to report that to the Federal Government. It 
will be in Federal Government records.
    Mr. Zimmerman. But the issue is whether or not they break 
it down by our region or not. They may not break it down by our 
MMA, and if they don't, that's the problem. That's when it get 
difficult.
    Mr. Souder. OK. But for example, if the ad ran on 60 
Minutes, unless it was preempted in your region, that should 
count as a national buy that hit your region. So we'll have the 
national buy during the period of time of your study, we'll 
have if they bought any regional buy during the period of time 
of your study and then your own buy. And to combine those 
three, they have to report by law. That was one of the disputes 
that we were having in the bookkeeping.
    Mr. Mica. Mr. Chairman, would you yield a second? To me, 
again, this isn't rocket science. We're all running, will be 
running campaigns or people run campaigns. You do target areas. 
I cannot believe that ONDCP cannot run in, say 10 communities, 
take Baltimore, I mean, and run a concentrated campaign and 
evaluate it. There are firms out there that will tell you the 
effectiveness of your message over a certain period of time in 
the program. The gentleman here has given us an evaluation of 
what good and bad ads are, I mean, even putting the tag line on 
that he's telling us, free, that you have to sort out who the 
messenger is to make these ads most effective.
    But if we can't take a few areas in the country, run a 
program, and evaluate its effectiveness, and this hasn't been 
going on just today, we're 3 years into the program.
    Mr. Souder. We need our committee records before we do any 
earmarking inside the bill, we need to know the interactive 
variables in Cincinnati and Lexington and Knoxville. In other 
words, your campaigns were not running alone. Because there 
would have been Federal ads running, if there were local 
placements, and we can get those things by regional markets. If 
it's true, then part of what I would be thinking is that some 
of this 33 percent that got away from the media buy might be 
used for the local market supplement. In fact, there could be 
bonuses if the communities come up with dollars to match.
    Do they offer you the ads that you can raise money to run 
the national ads if you chose in your market?
    Ms. Patrick. We've actually just started in Connecticut 
working with our media to have sponsored ads. Because again, I 
think sustaining the pro bono support is very difficult. I have 
to say too that I'm very concerned that the national publicity 
discrediting the campaign is going to affect media's 
willingness to continue to run it on a pro bono basis.
    So where we may have been successful in the past, and 
certainly I think when we, during out pilot phase in 
Connecticut and during the period that there was a local buy 
going on, our media were going way beyond a one to one match. 
They were excited, they were invested. Some of them have 
sustained that, others have dropped off.
    I think we need to also look at the unintended consequences 
here that the discrediting of the campaign is having in terms 
of media's willingness to participate, period.
    Mr. Souder. Have any of you used any of the national ads to 
have local people put them up in your markets?
    Ms. Patrick. Yes.
    Mr. Souder. You have. So they make that available, actually 
nationally, you don't have to produce.
    Dr. Johnston and all of you who have dealt with market 
research, it would intuitively tell me that the medicinal 
marijuana campaigns have had a cross impact on our message, 
when you're trying to run ads that it's harmful, particularly 
if it's high risk oriented, and medicinal marijuana ads are 
running simultaneously. To my knowledge, we don't have any 
data. But would you just kind of initially comment, because at 
the very least, what we would probably have in the study mix of 
the tracking is whether or not, although it wouldn't be a 
significant sample size, that California, Arizona and States 
where referendums were running may have skewed even this survey 
that suggest that the recent ads weren't working on marijuana.
    In other words, it may be that they were working in 
Lexington and Knoxville, in Cincinnati, in other parts of the 
country, and what we may be getting is a byproduct of medicinal 
marijuana referendums in certain States where it's changed the 
nature of that in market research. It happens all the time. 
None of us know the answer to that question.
    But wouldn't you, if you were trying to basically sell 
Crest toothpaste, try to figure that out, if there was a 
variable, or wouldn't you look for, and then if it looked like 
it was there, then you'd try to get it to a statistical sample 
size?
    Mr. Johnston. Maybe I could address that. I think it's a 
good point that what else is going on in society is going to be 
influencing the very things we're trying to influence with the 
ad campaigns and maybe upsetting them or hiding, masking the 
effect of them. Certainly if you look at marijuana, that's one 
of the things that's been going on in the last few years is a 
very vigorous public discussion about medical marijuana use and 
the initiatives to bring it about in various States.
    We have done some analysis in California of the attitudes 
of kids before and after the initiative that was passed, 
thinking that while it may or may not influence their actual 
marijuana use, it may influence their attitudes about 
marijuana. So far, and this is not yet published, but so far we 
have not found any evidence of effects there. But that's 
because we're comparing them to the rest of the Nation.
    The fact is, I think if there is an effect, it probably is 
nationwide, because it was in the national media. So it could 
be that there is an effect, but we can't parse it out, because 
it's affecting everybody.
    Mr. Souder. What age group were you studying on that? It 
could also be they were too young.
    Mr. Johnston. I'm sorry?
    Mr. Souder. What age group were you studying? They may not 
have seen the campaign. On California, when you said that you 
did the study in California, you were tracking medicinal 
marijuana, were you tracking junior high students who would 
have been not kind of in the market at that time, or were you 
tracking high school or adults?
    Mr. Johnston. Both junior and senior high school students.
    Mr. Souder. So theoretically, you should have seen some 
response.
    I also need to clarify for the record, because Mr. 
Zimmerman raised his hand, but that isn't in the record that in 
fact Cincinnati used the national ads.
    Now, I want to come back to another question, which was, 
several times you said there didn't seem to be, in fact you 
said it stronger than that, any gain in other illegal drugs 
when you convinced the target market on that drug. Mr. 
Zimmerman I believe said that, I believe Dr. Johnston said 
that, Professor Palmgreen. There seemed to be that kind of 
general consensus. If that's true, whenever we run a campaign 
are we merely shifting them to another drug?
    Mr. Palmgreen. That was one of our fears, and that's 
another reason why we've measured all of these other 
substances. We really did not see any increases in those other 
drugs. We were afraid perhaps we might push them from marijuana 
to using something else. We didn't see any increases in other 
drugs.
    Mr. Souder. There was no reduction, but there was no 
increase?
    Mr. Palmgreen. There was no increase, right.
    Mr. Souder. OK. And you saw the same?
    Mr. Zimmerman. Yes, sir.
    Mr. Souder. Good. That's good to clarify. So you didn't 
lose ground by shifting, you just didn't gain the ground that 
you had hoped.
    I wanted to ask some questions on the specific targeting in 
Lexington and Knoxville. My probably biggest single complaint 
about what we've been doing in the narcotics area is that we 
don't target to high risk. In fact, we in the community anti-
drug initiative put a percentage that went to higher drug use 
areas in the allocation of funds.
    But you've come up with a different concept here, and I 
have some first technical questions, Dr. Palmgreen. Are these 
eight questions all the questions that you do in the profile?
    Mr. Palmgreen. The original questionnaire that was 
developed back in the 1960's had something like 80 items. And 
you can't administer that to kids. They go to sleep.
    So we had to shorten it as much as we could and still have 
a valid instrument. So we cut it down to eight items. That's 
the only thing that we used to measure sensation seeking, and 
it correlates very strongly with the longer version.
    Mr. Souder. Do they have to say yes to all eight?
    Mr. Palmgreen. Oh, no, it's a five point scale, they can 
strongly agree to strongly disagree on each one.
    Mr. Souder. And in this, when you looked at these 
variables, you don't have, for example, income, performance in 
school, you went more to psychological variables?
    Mr. Palmgreen. We measured all those things, we looked at a 
whole range of what we call risk and protective factors, risk 
factors being things like delinquency, having friends that use 
marijuana, protective factors being things like being highly 
engaged in religion and so forth. We took those things into 
account, controlled for them statistically in our analyses. So 
they have been built into the analysis.
    Another thing, too, I'd like to make a point, is that 
Lexington and Knoxville were very similar. No ONDCP campaign 
was running at that time nationally, except for the last 6 
months of data gathering. The pro bono effort by the 
Partnership had really dropped off tremendously. But it was the 
same effort in both the Lexington and Knoxville markets. We 
also checked with the schools to make sure that they were 
running the same kinds of anti-drug programs. We are still in 
touch with them about that, and they still are running exactly 
the same kinds of anti-drug programs.
    We monitored the daily newspapers in each community, 
looking for things that might be going on, changes in laws and 
so forth that might have changed marijuana use in one community 
but not the other. No such things happened. So it was a very 
well controlled study that you can do on the community level, 
you can compare one community against another.
    The problem with the ONDCP campaign is that there is no 
comparison group. The comparison group would have to be a 
country identical to the United States, basically, that did not 
have an ONDCP campaign. Obviously, that's impossible to do.
    Failing that, if you really want to make strong statements 
about the effects of the campaign, what most social scientists 
will agree is that you need data about drug use well before the 
campaign started, during the campaign and after the campaign. 
One of the things that's always puzzled me is that no money was 
appropriated, perhaps it was never asked for, was appropriated 
for NIDA or anybody else to gather data prior to when the 
campaign started to find out what the trends were in use prior 
to when the campaign started, as we did in Lexington and 
Knoxville, so you could see what happened when the campaign 
started.
    Unfortunately, the NIDA study that Congressman Mica has 
referred to didn't really start gathering data until----
    Mr. Souder. I don't think that's fair. Don't you believe 
that at the national level we track this stuff through multiple 
different studies that could be correlated? In other words, 
you're right, it wasn't precisely correlated, there's no 
control group, I agree with those premises. But it wasn't that 
we don't have the Michigan studies, other studies that we do 
through schools that kind of show trends in drug use that 
public agencies do?
    Mr. Palmgreen. Right, they show trends in drug use. There's 
no question about that. They are not geared as specifically, 
though, as the NIDA investigation to measure exposure to 
particular PSAs in the campaign, relate that exposure to 
changes in attitudes and beliefs and so forth. The NIDA study 
unfortunately didn't get started gathering data until 1\1/2\ 
years after the campaign went national; 1\1/2\ years after the 
campaign went national.
    And then we only have 18 months of data since then. We have 
a snapshot, is what we have. And this is what all the 
hullabaloo is about. We're making a lot about something that we 
shouldn't be making a lot about, that at this point, that study 
was really not able to make the kinds of statements about the 
campaign impact that people wanted it to be able to make.
    Mr. Souder. Right. You wouldn't do it this way if you were 
in private business, you'd go broke. In fact, I just had a 
conversation with Dr. Walters, that I believe this anti-
terrorist campaign is effective, it links up with the subject 
at hand.
    But I told him, I have a concern that in the ad research, 
my background is more marketing and business, that the 
measurement of this is that what we didn't know going on is 
whether, if somebody who is a risk user of narcotics will 
actually be swayed by the premise that he might be funding a 
terrorist. What we may find is that 90 percent of the people, 
we've convinced them that narcotics, which is what the goal of 
the advertising agency is, that there's a link between 
terrorism and narcotics. What we didn't do in our preliminary 
study is show that had a resulting reduction in drug use, 
because we didn't measure that.
    So it would be, from an ad perspective, a successful 
campaign. And as a building block, but it could come out with 
another study that says, it didn't reduce drug use because it 
was a building block in a longer process. And we're not used to 
taking people's taxpayer money and, when we were trying to get 
the maximum use up in some frequency on the TV not to do the 
marketing research. We're paying some of the price for that, 
we're hoping that would be cross-correlated.
    I have a couple of other questions, but I'll yield to Mr. 
Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    What is the most effective way, do you all think, to reach 
young people? Just to reach them. In other words, is it in 
print, through peers, parents, television? If you had to put 
together a tool kit to reach young people the age we're talking 
about here, what are the three things you would make sure you 
do? I'm talking about the kinds of things I just talked about. 
And is television probably the most effective?
    Let me just take it a little bit further. Mr. Mica talks 
about television. When I first ran for office, I was literally 
two to one down. It was a very short campaign. And over in the 
process of a weekend, I went to two to one up because of 
television. In a weekend, I mean from Friday to Monday morning. 
So I'm just wondering, first of all, I'm trying to focus in, I 
take it that all of you believe we need a media campaign.
    I'm just trying to figure out how significant is it. In 
other words, if we took it out, this is a better way of asking 
it, what will we substitute it with? Assuming you're trying to 
reach young people.
    Mr. Johnston. That's part of the problem. We don't have a 
lot of arrows in this quiver. We've got prevention in the 
schools, but there's not a lot of evidence that's what in most 
of the schools is terribly effective. I think there are 
programs that are effective, but they mostly aren't in the 
schools.
    We've got what parents do, but one of the major ways you 
can influence that is through the media. So I think if we threw 
this out, we'd give up a lot.
    The media itself is important. News coverage, I think, is 
important partly because it has credibility. So when a new drug 
comes along and there start to be casualties, and those get 
reported in the media, people believe that and it begins to 
change their views. But I think we can accelerate that process 
considerably by means of advertising and focused messages. I 
think within the media, it seems to me that radio and 
television are the most powerful for teenagers. If I had to 
pick, it's clear from our data that their use of the Web is a 
growing source of media consumption. Actually, they are 
gradually reducing their consumption of radio and television. 
But still it's very high.
    So you ask a very broad and difficult question to answer. 
But I think that if I had to place my own money where I wanted 
to get the most impact, I think it would probably be in radio 
and television, and to a lesser extent, the Web. I probably 
would not try to do a lot of the other things that are here, 
not because they aren't worth doing and worthy causes, but 
because I think that if you spread your resources too finely 
across too many objectives, you don't accomplish any of them.
    Mr. Palmgreen. I would certainly agree with that. The media 
are far and away the most cost effective way of doing the 
prevention job. That doesn't mean that there aren't other ways 
to approach it, there certainly are. School programs, school-
based programs are certainly very important and the Internet is 
certainly becoming much more important. In fact, ONDCP in the 
campaign has been making a very concerted effort on the 
Internet. They've been making a very concerted effort to 
partner with schools to try to get a multiplier effect for the 
dollars that they're spending. But the media portion is the 
portion that's by far the most effective. We would miss it 
tremendously if it disappeared.
    Mr. Cummings. Let me just throw one thing in here real 
quick. When we talk about ad specific, let's say an ad specific 
to ecstacy, and you all talked about how it didn't seem to make 
things worse or better, I mean, as far as other drugs are 
concerned. Is it better to have a, and I'll go back to the 
Lauryn Hill ad, I don't think she talks about a specific drug. 
Is it better to have sort of like a generic ad in instances, or 
can they be just as effective, for example, as an ecstasy ad? I 
mean, have you all looked into that kind of thing?
    Mr. Johnston. I follow your point. I think that you 
probably want a mix, obviously some ads can talk about drug use 
as kind of a constellation of decisions that people make to 
avoid or to engage in. But I guess I would argue that based on 
what we know, it's important for a number of the ads to address 
specific drugs, basically to pick out targets. So at any given 
point in history, it seems to me, you look at what are the 
problems that are facing kids who are growing and try to focus 
some of the ads on those.
    I mentioned the ad campaign on inhalants, which looked like 
it was very successful. I think there was an earlier one on 
heroin which had some evidence of success. Today clearly a 
target is ecstasy. I guarantee you that within a year or two 
there will be something else coming around. Because it keeps 
coming around and we have to keep adding questions about new 
drugs.
    So I think to a certain degree, you need to tailor the 
targets to what's there. And in a sense, you might be 
allocating money for a target you don't even recognize yet, but 
it's yet to be seen.
    Mr. Palmgreen. Another point I'd like to make that is very 
important, I think, is that it's age related. Our research that 
we've done with kids of various age ranges, and a lot of other 
research, has shown that young kids have a tendency to think of 
drugs in general. They don't differentiate among drugs. They 
don't know enough yet. So a generic anti-drug message can be 
very effective with those younger kids.
    As kids get older, they get smart. And they start to 
differentiate among different types of drugs. The kids we 
talked to said, look, don't try to tell us that marijuana is 
going to kill us, because we know it's not going to. Tell us 
what the effects of marijuana really are that we should be 
worried about. And if you want to focus on some other drug like 
meth or something, then give us something specific about meth. 
Because we know the differences among those drugs.
    So there, I think, as you get into the older kids, you have 
to go to more targeted, more specific kinds of ads.
    Mr. Cummings. I do believe that we are going to have an ad 
campaign. But I also believe that we really have to clean this 
up, so that we are spending these tax dollars efficiently and 
effectively. Part of the reason why I say I think we're going 
to have an ad campaign is based upon the things that you all 
just said.
    And if there were, if you had to give us advice, the one 
thing that you would definitely do, or two things that you 
would do, to make sure we're most effective and efficient in 
the ad campaign, because that's what we're dealing with, when 
all the dust settles, Barr can say what he wants to say, Mica 
can say what he wants to say, I'm telling you, when it all 
settles and boils down, there's going to be an ad campaign. 
That's my guess. And you've got some ONDCP people sitting in 
behind you.
    What would you all say to Walters when you say, don't throw 
out the baby with the bathwater, what would you say that you've 
really got to do?
    Mr. Palmgreen. Well, I think one of the things that needs 
to be done is, as I said, our research said that I think very 
dramatically and with a great deal of scientific rigor, showed 
that campaigns that focus on the risks of drug use can be very 
effective. And again, this ties in very closely with the 
national data from Dr. Johnston's ongoing study.
    One of the things, unfortunately, that the ONDCP campaign 
has not done, and I'm not sure why that has occurred, is that 
there have been very few risk ads produced, or what we call 
negative consequence types of ads. Many of them have focused on 
the positive consequences of a drug-free lifestyle, for 
example. There hasn't been any research that I know of that has 
really looked at those kinds of ads specifically to see whether 
they are effective.
    There have been a number of ads that have dealt with how to 
resist efforts by your friends to get you to use drugs. Now 
there is some research that indicates that programs like that 
can work. We don't know whether ads like that can work. But 
just this year, the ONDCP is now starting to focus on risk type 
ads, negative consequence type ads, the terrorism ads would be 
an example of that, but there are some other ads that they're 
putting out.
    I've seen the media plans for the rest of the year, they're 
planning on running nothing but negative consequence or risk 
ads for the rest of the year. What Director Walters has said is 
they are going to be focusing more on those kinds of ads. I 
think that's the right direction to be going.
    Mr. Cummings. I'm almost finished, Mr. Chairman. But before 
you answer, Dr. Johnston, it's interesting, the kids that I 
talked about in my district, there were about 100 of them, high 
school students, do you know what the No. 2 ad was after Lauryn 
Hill? And these are all inner city, African American kids. It 
was the frying pan. It says, the woman is throwing the frying 
pan all around. Do you know the one I'm talking about?
    Mr. Palmgreen. Yes.
    Mr. Cummings. Is that considered a risk ad?
    Mr. Palmgreen. Yes. I think that's considered a risk ad. 
That was sort of the signature ad that kicked off the campaign. 
And then we saw very few of those ads after that.
    There was one in particular that you may have seen called 
Vision Warrior that involved an African American who at one 
time was an aspiring actor, became very much of a heavy drug 
user, ruined his career, came out of that and decided to do 
something about it. He started going around to schools and so 
forth and produced a program. And he called it the Vision 
Warrior, which is really an extremely effective approach.
    The one PSA was made which in 30 seconds sort of shows a 
microcosm of what he presents at the schools, at treatment 
centers and so forth, an extremely effective ad. It has not 
received very much air time, unfortunately. I think we need 
more ads like that in the campaign.
    Mr. Cummings. Dr. Johnston, what would you do? What would 
you tell ONDCP, since they're listening?
    Mr. Johnston. In some ways I hesitate, because persuasion 
is a very, very difficult and subtle process. So if I come up 
with simple solutions, they may not take into account the 
subtleties. I think in general, I would argue for more media 
weight, reaching kids with more messages, probably more of the 
messages being drug specific, dealing with the drugs of 
greatest concern at the moment or rising concern.
    I would certainly do some research on whether or not to 
take the ONDCP tag line off the back of all these ads, because 
I think that may be a major discounting factor all by itself. 
That would be the cheapest. In fact, it would cost nothing to 
fix it.
    And I think probably in the end, I would leave the 
creatives to the advertising professionals who have spent their 
careers doing this kind of thing. I think they can get guidance 
about strategy. But I think at some point you have to turn them 
over to the pros. I don't think we academics are very good at 
it. I've tried at times, and I don't think probably Government 
officials are probably good at it, either. But that doesn't 
mean we shouldn't have judgments and shouldn't review what's 
done.
    Mr. Cummings. Ms. Patrick.
    Ms. Patrick. I guess the thing I would urge you to do is to 
keep the focus on parents. Because we saw such a significant 
increase in parents' willingness to be educated on how to talk 
to their kids when they would be motivated to have the talk. 
Before that, we just didn't have much penetration with the 
parent market at all in Connecticut.
    So I think it motivated them, it scared them, quite 
honestly. And then they wanted to know, well, what do I do, how 
do I do it. And then they started coming to things.
    Mr. Cummings. Mr. Zimmerman.
    Mr. Zimmerman. I'm going to answer several of your 
questions you raised earlier all at once. Specifically, when 
people make decisions to try new products or to try marijuana 
or whatever, they're doing it because they are not only aware 
but they are persuaded to do that.
    So if I were to tell the ONDCP one thing, I would tell them 
that they absolutely must understand not only the ability of 
their ads to generate awareness, but the ability of their ads 
to persuade someone to not use, maintain non-usage or to stop 
usage. You have to measure both. You also have to understand 
the weight at which they go on the air.
    Once you know those three things, awareness, persuasion and 
weight, which is GRPs, then you can very effectively determine 
and hold your agency's feet to the fire to understand whether 
or not what they're putting on air is causing behavioral 
change, which is what we want.
    So if I were to say is the ad effectiveness, as the 
chairman asked me, whether the TV ads were working or not, 
would I cut those, absolutely not. TV is the most effective way 
for generating awareness. We have seen at P&G that word of 
mouth, as an example, can be extremely effective at persuading 
people. Although the level of that is smaller, it can be very 
effective if you hear about a new car, you hear about a new 
movie, it's frequently through word of mouth.
    So the important thing I want to stress is measure all 
three components, the weight, the awareness and the persuasion 
ability of your various ads. But by all means, do it.
    Mr. Cummings. Thank you. Thank you, Mr. Chairman.
    Mr. Souder. I have a few last questions.
    Mr. Zimmerman, could you address this question, the focus 
has historically been on, to the degree we have research on 
longitudinal, large enough sample size, could you explain how 
focus groups might be used in this mix? Because some of the 
things you were describing earlier we really need to get the 
intensity off of, which you can't in a survey. Also, if I can 
ask a secondary question, do you believe that self surveys are 
accurate, which is a fundamental assumption in this?
    Mr. Zimmerman. There is a definitely a role for focus 
groups. I've moderated probably 200 to 300 focus groups myself. 
I use them to develop an understanding of why people have the 
opinions they do. I would not use those as a replacement for 
quantitative measures. Yes, I can measure quantitatively some 
of the same things we ask in focus groups. And we frequently do 
that.
    Your second question was?
    Mr. Souder. When you do a new product at Procter and Gamble 
and do research, how much of it is based on, for example, 
certainly on media buy, or you wouldn't ask whether people ask 
the news, they all watch the news, they don't watch game shows. 
But where is the line here where self reporting versus actually 
measuring arrests in an area, expulsions out of school, should 
we cross measure?
    Mr. Zimmerman. I would say that the majority of the 
research we do is self reported, either by phone interviews or 
by questionnaires. This is probably 90, 95 percent. But we also 
look for other habits and practices data, which we collect from 
secondary sources. And we look at convergence of results, that 
we're getting the same results from all three different areas. 
We don't depend on any one alone.
    Mr. Souder. So if you saw in a given market a successful 
reporting of a campaign, but the arrests went up and expulsions 
from school went up, you might check to see whether in fact you 
had a more aggressive sheriff, or whether the schools are 
cracking down. But then you'd look at that as cognitive 
dissonance if in fact there hadn't been a change?
    Mr. Zimmerman. Yes, and that's where focus groups coming 
into being. They're miracle workers. As an example, we had one 
school district where we saw very low usage in grades seven and 
eight. It suddenly jumped up hugely, it was like a huge step, 
grades 9, 10, 11 and 12, marijuana usage was constant. And 
alcohol usage was constant. So the data was accurate, we had 85 
percent of the kids in this school district self reporting this 
was happening. So we said, what's going on?
    Well, it turns out the kids in a community meeting said, 
oh, that's because of field parties. Everybody goes out after 
football games, just like the parents used to do, and they used 
to drink pop, the kids are now drinking alcohol and smoking 
dope. So the focus group type of activity helped us understand 
what was going on. Then we could work with the local law 
enforcement community and with the parents to help them 
understand what to do next.
    You've got to surround the issue with parents, as you've 
said, it is extremely important. Our data says parents are 
these most important source, faith community and local media.
    Mr. Souder. I'll finish with this question, but I'd like to 
get your reactions, starting with Dr. Johnston. One of the 
things that really troubles me in this process, because you've 
highlighted it, I've never heard of a business that doesn't do 
market segmentation and targeting. You have to know who you're 
going after and why you're advertising or of course it's going 
to fail. If we don't know who we're trying to reach with our 
ads to win, we're not going after registered voters, if we're 
in a primary it's different than the general election, if we 
don't know whether we're going for swing voters, we lose. We do 
that every day.
    The problem I see here is the resources aren't sufficient 
to get market clout for all the things you've just identified. 
And we're not likely to dramatically change it.
    For example, prevention, is one group that you're 
targeting, the maintenance is another, and getting somebody off 
is a different group. I would like you each to comment on the 
adventure seekers. To that degree, they may be more likely to 
be in one of those three groups, if we could identify that. Is 
that a way to get around that?
    Furthermore, if you're already targeting different ads for 
those you're trying to prevent from those you're trying to keep 
off and those you're trying, in other words, eighth graders or 
potentially sixth to eighth graders are coming into the market, 
you've got another group that weren't at risk in eighth grade, 
but as they go to high school, they start going to parties or 
they start to do these things, so they're now becoming at risk. 
You have adults who lose their job, in other words, the market 
isn't static, either.
    Now you've also said that it's best that when you target 
certain narcotics, it has an impact. But it doesn't necessarily 
have a cross referral. Then there's the whole question of 
targeting the parents, which is another whole market. How do 
you do this if in fact at best we're going to get probably flat 
funding, which is declining every year because of advertising 
costs going up? What would you use? Would you do a mixed 
strategy?
    First off, do you have any comments on what I just said. 
Would you use a mixed strategy where you vary it from time to 
time? Would you in this try to leverage? Because these are 
policy questions. We don't do the ads. Ad people should do the 
ads. But these are kinds of fundamental policy questions of 
where's our priority as a country, and what's most effective 
with that, along with the drug czar and the executive branch, 
and who are we targeting. And if it becomes we're targeting 
everybody, then we're targeting nobody. We don't have enough 
dollars.
    Mr. Johnston. That's the problem with having too many 
targets. I think the Partnership does do market segmentation in 
their research and planning. I can't tell you the details of 
it, because I don't know them.
    But one of the things we've seen over the years is that 
when there has been an important shift, let's say, in marijuana 
use among young people, it's almost always due to fewer kids 
initiating use, but also to more kids quitting use. And I 
suspect that some of the very same messages and influences lead 
to both.
    I don't think that generally the heavy users, people who 
have already got an established pattern, are likely to be very 
influenced by marketing kinds of interventions. They are too 
mild an intervention for the strength of the behavior. So I 
don't think that's probably a realistic part of the market to 
target.
    But I'm not sure, actually, that the strategy would be too 
different if we're talking about trying to prevent initiation 
versus getting people to quit. If they say a drug is more 
dangerous, both things tend to happen.
    Mr. Souder. How did you feel about the sensation seeker 
targeting? I'd like to hear Dr. Johnston on that.
    Mr. Johnston. Well, Dr. Palmgreen's done a lot more 
research on this than I have. I think that very likely that is 
a high risk segment, as his research suggests. I don't have a 
good, intuitive feel for how effective we can be with them. But 
his research suggests that we can. And clearly if we can, those 
are some of the higher risk types of individuals that we might 
be able to nip the bud early before they do become established.
    Mr. Souder. Do you agree with the principle that in 
marketing research and focus groups we should be looking at the 
higher risk population? Because one of the things that we found 
in our community anti-drug initiatives, in our drug-free 
schools initiatives, who by the way, the data is even worse 
than here overall, it isn't that there isn't data, but that 
there isn't even as much scientific data. There's lots of 
individual reports and individual programs.
    But one of the things is, they tend to be more effective at 
reaching kids who are less at risk. It is a fundamental problem 
we've had in these programs.
    Mr. Johnston. Right. I certainly think it's worth 
differentiating them in the research and looking at that and 
probably in the evaluations as well. And in a sense, it's an 
empirical question, how effective can we be, where do we get 
the most bang for our buck. My guess is we need to go after 
both segments, the high sensation seeking, which may take a 
certain qualitative type of ad, as was suggested, and the rest 
of the kids.
    We have to remember that drug use is a majority behavior 
among our kids by the time they're out of high school. So there 
are a lot of people in the population that we have to 
influence.
    Mr. Souder. Dr. Palmgreen, before you comment, may I ask 
you, on your Knoxville and Lexington studies, you showed a 
double difference between the two different groups. Did you 
have that as heavy use, light use, one time use? In other 
words, in fact how much can we isolate them? Because doubling 
is pretty significant.
    Mr. Palmgreen. Well, our only measure of use was the one 
that has been kind of the gold standard, I guess, it's been 
used in a lot of national studies, and that's any use in the 
last 30 days. Now, that can be misleading sometimes, because 
someone may just have used it just one time in the last 30 days 
when you ask that person by self-report. But overall, it's a 
very good measure of what we call current use of marijuana.
    The question that you asked Dr. Johnston about targeting 
high sensation seekers, the ONDCP campaign certainly is built, 
I know, on social marketing premises. That's one of the reasons 
why they were targeting 11 to 13 year olds, because they knew 
that this was the blank slate, as Dr. Johnston called it, that 
you can write on. They also have been making an attempt to 
target high sensation seekers by doing focus groups with high 
sensation seekers.
    The difficulty, and the real difficulty we faced in 
Lexington and Knoxville, was to develop high sensation value 
ads, ads that were really dramatic, graphic and so forth, for a 
drug like marijuana, which is not like ecstasy or meth or 
something or cocaine, where you can produce very graphic ads 
that say that use of this drug is going to kill you or cause 
other extremely serious physical problems and so on.
    We had to, therefore, in Lexington and Knoxville, focus as 
much as we could on two things. One, on novelty, try to give 
them some ads like they had never seen before, because that's 
the primary thing high sensation seekers are looking for. The 
second thing was, we wanted to make them dramatic. We wanted to 
tell a story. We didn't want someone preaching to them. We 
wanted a little narrative. That was very, very important.
    This was one of the things they faced, that the Partnership 
has faced in producing ads for the ONDCP campaign. I remember 
the Partnership coming to us early on in the ONDCP campaign and 
telling us that a number of the agencies that they had relied 
on in the past to produce ads refused, absolutely refused to 
produce or participate in the campaign to produce anti-
marijuana ads, because they felt that marijuana was a drug that 
was so mild, as they thought, in fact, they needed some 
convincing themselves, that they could not produce really hard 
hitting ads on this drug.
    Mr. Souder. So maybe we need to drug test our ad agencies. 
Because certainly BC Bud, which is the hottest thing in the 
street in Boston, it's selling for as much as cocaine, in 
Seattle and San Francisco, it's about half, its THC content is 
roughly triple what we saw. We're in this mythology of the old 
marijuana, Quebec Gold on the East Coast, BC Bud on the West. 
In my home city of Fort Wayne, BC Bud is selling for more than 
cocaine. There's not a lot of it yet, but we're intercepting 
it. It's more like meth. It's a constant moving target.
    Ms. Patrick or Mr. Zimmerman, do you have any closing 
comments?
    Anything else, Mr. Cummings?
    Mr. Cummings. I just wanted to thank you all for what 
you're doing. This is very, very helpful. I think that we have 
to be practical, and we have a limited amount of time, and a 
limited amount of space we occupy on this Earth. I think that 
we have to be as effective as we can while we're here.
    I think the testimony that you have given has been very 
balanced and very thoughtful. It's this kind of testimony that 
helps us to make the kind of decisions that we have to make. 
I've often said if you've got bad information, it's hard to 
make a good decision, or lack of information, it's hard to make 
a good decision. So we really do appreciate your being here, 
and we thank you for what you do every day to make a 
difference.
    Mr. Souder. Let me add to that my thanks for both being 
here and all your work. With that, the subcommittee stands 
adjourned.
    [Whereupon, at 12:12 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]

                                   - 

</pre></body></html>
